<html>
<title> - TSA: SECURITY GAPS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]








                           TSA: SECURITY GAPS

=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            NOVEMBER 3, 2015

                               __________

                           Serial No. 114-99

                               __________

Printed for the use of the Committee on Oversight and Government Reform





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]












         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                      
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

22-989 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                     
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, Jr., Tennessee       CAROLYN B. MALONEY, New York
JIM JORDAN, Ohio                     ELEANOR HOLMES NORTON, District of 
TIM WALBERG, Michigan                    Columbia
JUSTIN AMASH, Michigan               WM. LACY CLAY, Missouri
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
SCOTT DesJARLAIS, Tennessee          JIM COOPER, Tennessee
TREY GOWDY, South Carolina           GERALD E. CONNOLLY, Virginia
BLAKE FARENTHOLD, Texas              MATT CARTWRIGHT, Pennsylvania
CYNTHIA M. LUMMIS, Wyoming           TAMMY DUCKWORTH, Illinois
THOMAS MASSIE, Kentucky              ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDA L. LAWRENCE, Michigan
RON DeSANTIS, Florida                TED LIEU, California
MICK MULVANEY, South Carolina        BONNIE WATSON COLEMAN, New Jersey
KEN BUCK, Colorado                   STACEY E. PLASKETT, Virgin Islands
MARK WALKER, North Carolina          MARK DeSAULNIER, California
ROD BLUM, Iowa                       BRENDAN F. BOYLE, Pennsylvania
JODY B. HICE, Georgia                PETER WELCH, Vermont
STEVE RUSSELL, Oklahoma              MICHELLE LUJAN GRISHAM, New Mexico
EARL L. ``BUDDY'' CARTER, Georgia
GLENN GROTHMAN, Wisconsin
WILL HURD, Texas
GARY J. PALMER, Alabama
                                 ------                                

                   Jennifer Hemingway, Staff Director
                 David Rapallo, Minority Staff Director
               Michael Kiko, Subcommittee Staff Director
                           Ari Wisch, Counsel
                           Willie Marx, Clerk
                           Sarah Vance, Clerk
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on November 3, 2015.................................     1

                               WITNESSES

Mr. Peter Neffenger, Administrator, Transportation Security 
  Administration, U.S. Department of Homeland Security
    Oral Statement...............................................     4
    Written Statement............................................     7
Hon. John Roth, Inspector General, U.S. Department of Homeland 
  Security
    Oral Statement...............................................    23
    Written Statement............................................    25
Ms. Jennifer Grover, Director, Homeland Security and Justice, 
  U.S. Government Accountability Office
    Oral Statement...............................................    51
    Written Statement............................................    53

                                APPENDIX

Written Statement for the Record from Rep. Gerald E. Connolly....   116
Peter Neffenger Responses to Questions for the Record............   118

 
                           TSA: SECURITY GAPS

                              ----------                              


                       Tuesday, November 3, 2015

                  House of Representatives,
      Committee on Oversight and Government Reform,
                                           Washington, D.C.
    The committee met, pursuant to call, at 10:04 a.m., in Room 
2154, Rayburn House Office Building, Hon. Jason Chaffetz 
[chairman of the committee] presiding.
    Present: Representatives Chaffetz, Mica, Duncan, Jordan, 
Walberg, Amash, Gosar, Gowdy, Massie, Meadows, DeSantis, Buck, 
Walker, Blum, Hice, Russell, Carter, Grothman, Hurd, Palmer, 
Cummings, Maloney, Norton, Lynch, Connolly, Cartwright, 
Duckworth, Kelly, DeSaulnier, Welch, and Lujan Grisham.
    Chairman Chaffetz. The Committee on Oversight and 
Government Reform will come to order. Without objection, the 
chair is authorized to declare a recess at any time.
    I appreciate the participants today on an important topic 
that we need to have vigilant oversight on, dealing with the 
TSA and the security gaps in the critical part of our culture. 
The 9/11 Commission concluded in their report, ``The most 
important failure was one of imagination. We do not believe 
leaders understood the gravity of the threat.'' That report 
underscored the need for government leaders to do a better job 
of preparing for security threats that can only now be 
imagined. It's no secret that people interested in harming 
America are coming up with creative ways to circumvent the 
existing security measures.
    The battle for aviation security is fought daily by the 
thousands of men and women who serve in the TSA's workforce. 
Every day, 2 million passengers at nearly 440 airport across 
the country depend on TSA to help hold the line and keep them 
safe. That's why passenger screening at checkpoints are so 
important. State-of-the-art screening technologies are not 
necessarily the magic bullet. There's also a human component 
and other methods and things that are used throughout the world 
that we should be paying attention to and implementing 
ourselves, but all aspects of passenger screening process, 
including luggage and carry-ons, must be working in concert. It 
is a vital part of what we do to protect this Nation, and thus 
the hearing today.
    I'd like now to yield time to the former chairman of the 
Transportation Infrastructure Committee, he's the chairman of 
our subcommittee here, Mr. Mica of Florida.
    Mr. Mica. Thank you, Mr. Chairman, and our ranking member 
and our witnesses today. Having been around since we formed TSA 
and one of the original authors of the legislation, we have 14 
years behind us, and unfortunately, we don't have much progress 
and success of the major purpose that we set out for, and that 
was to make certain that we are safe and secure, and that we 
have a system of, particularly passenger and baggage screening, 
that ensures that for the traveling American public.
    Now, you heard what I just commented on. The GAO report 
from this week just confirms that in just about every area of 
operations. We'll hear in a few minutes from the Inspector 
General, and on page 3 is a sort of a summary. He says, ``Our 
most recent covert testing in September 2015, the failures 
included''--this is TSA failures--``included failures in the 
technology, failures in TSA procedures, and human error. We 
found layers of security simply missing. It would be misleading 
to minimize the rigor of our testing or to imply that our 
testing was not an accurate reflection of the effectiveness of 
the totality of aviation security.'' That is very alarming. 
This report is very alarming.
    And where we've come, we're back from, again, 2007, some 
information leaked, and this was in the--this reporting from 
USA Today that screeners failed 75 percent of the time in 
finding dangerous materials and items that posed a threat, 75 
percent of the time with 30,000 screeners. We're now at 46,000 
screeners. And most recently, we've had this leak where the 
failure rate had been as high, and this is a report publicly 
obtained, of 95 percent failure.
    I think we need a complete overhaul. I think we need to 
address risk. I think we are hassling 99 percent of the people 
who pose no risk and still have no means of differentiating. We 
need to get TSA out of the screening business. They will never 
be able to recruit, they will never be able to train, they will 
never be able to retain, they will never be able to manage, but 
what they should be able to do is set the standards. And we 
have private screening under Federal supervision for a host of 
other activities, our highly secure nuclear facilities, our DOD 
facilities, and other facilities, and we let the private sector 
do what it does best, and we set the parameters and then we 
audit and we make the changes. Because, again, I don't care 
what I hear today, I'm convinced that you cannot fix this 
system that will continue to fail.
    I yield back.
    Chairman Chaffetz. I thank the gentleman.
    The Administrator, along with the thousands of people who 
serve in the TSA, need to own the system, and if problems 
arise, then they must be attended to swiftly and appropriately, 
but we also ask that they work in a proactive way so those 
threats are mitigated prior to getting to the airport, and 
certainly prior to getting on an airplane. I look forward to 
the hearing testimony today.
    We'll now recognize the ranking member, Mr. Cummings of 
Maryland, for 5 minutes.
    Mr. Cummings. Thank you very much, Mr. Chairman, for 
holding today's very important hearing. And let me welcome Mr. 
Roth, the Inspector General. It's good to have you here again 
on this very critical issue. Let me also welcome Ms. Grover 
from the Government Accountability Office, which does very 
important and excellent work for the committee on this and many 
other topics.
    I also want to welcome Administrator Neffenger. When I 
served as the subcommittee chairman on the Coast Guard and 
Maritime Transportation Subcommittee, I admired Mr. Neffenger's 
technical expertise and the steady, determined leadership he 
brought to the Coast Guard's most significant challenges, 
including dealing with the horrible Deepwater Horizon oil 
spill.
    I am sure he remembers how we called the Coast Guard back 
again and again and again and again and again, to ensure 
accountability, and every single time, you were up to the task, 
and I am so, so glad that you've been chosen for this task. And 
I thank him for his decades of service, and I applaud President 
Obama's decision to appoint him to this very critical position.
    When it comes to the security of our airlines and our 
flying public, we must always push to stay ahead of the 
terrorists, and anyone else who would do us harm. We must take 
nothing for granted. We must test ourselves constantly, and we 
must put the lessons we learn into urgent action. I've often 
said that so often we spend a lot of time talking about 
testing, and how things are going to work when we have an 
emergency. And so often what happens, and we saw this, to some 
degree, Mr. Neffenger, in Deepwater Horizon, we constantly say 
there will come a time when you'll see it works when the rubber 
meets the road. And when that moment comes, so often, we 
discover there is no road.
    Above all, we must never become complacent. We must treat 
every single day as if lives depend on the urgency of our 
actions, because they do.
    Unfortunately, until last spring, it appeared almost 
routine for senior leaders at the Transportation Security 
Administration to receive reports of security gaps in the 
Nation's air passenger screening operations. These reports came 
from the Inspector General and GAO and specialized red teams at 
TSA itself, and they described that this round of testing 
revealing yet more gaps.
    The question today, I believe, is whether TSA and the 
Department of Homeland Security are responding with the urgency 
this situation demands. As the President often says, are they 
responding with the urgency of now? Based on their actions over 
the last several months, I believe they are. However, their 
work is far, far from complete, and it is incumbent on both the 
agency and this committee to continue our oversight efforts in 
order to ensure that improvements are put into place.
    Last spring, Secretary Johnson ordered a comprehensive top-
to-bottom review of all of TSA's practices and procedures to 
understand why the agency's performance was falling short of 
its own standards, and our expectations here in Congress. He 
required senior leaders to report to him every 2 weeks about 
the root causes of these shortfalls, as well as the solutions 
being implemented to address them.
    Over the summer, TSA developed and began implementing a 10-
point plan to revamp all aspects of the screening procedures, 
personnel training processes, and equipment maintenance 
practices. It is clear that the agency has been aggressively 
working to change its culture, and I am very encouraged by the 
steps DHS and TSA have taken to date.
    However, we are early in the process. This agency has more 
than 42,000 employees responsible for ensuring security at 
about 450 airports. Making comprehensive changes in an agency 
of this size is not easy, and ensuring that these changes are 
effective and efficient in improving the agency's day-to-day 
performance requires a sustained, long-term effort. We must 
ensure that TSA establishes a new baseline with clear and 
specific metrics to measure performance. This committee must 
hold TSA's leadership accountable for the achievement of these 
new metrics.
    As I close, Administrator Neffenger, I think you know what 
I'm about to say: Just like at the Coast Guard Subcommittee, 
you should get used to seeing us on a regular basis. This 
committee's job is to oversee the implementation of TSA's 
transformation. We're going to be inviting you back again and 
again, because the American people are depending on us to get 
it right.
    Finally, let me close by noting that the airlines and 
others also play a critical role in ensuring our security. We 
need to take a hard look at decisions by the airline industry 
that are making the TSA's job more difficult. For example, we 
have learned that the new fees airlines are charging to check 
bags are causing huge increases in the volume of carry-on 
luggage. Although this may result in significant new revenue 
for the airlines, it is also putting significant new strains on 
our screening operations, and I hope you will address that, Mr. 
Neffenger.
    I hope we will have an opportunity to discuss these issues 
in more detail today, and at future hearings before the 
committee. And I just want to be clear, I have full confidence 
that we will get this right. We have no choice.
    With that, Mr. Chairman, I thank you and I yield back.
    Chairman Chaffetz. I thank the gentleman. We'll hold the 
record open for 5 legislative days for any members who would 
like to submit a written statement.
    We'll now recognize our panel of witnesses. First, we have 
Mr. Peter Neffenger, Administrator of the Transportation 
Security Administration at the United States Department of 
Homeland Security. We're also joined by the Honorable John 
Roth, Inspector General of the United States, Department of 
Homeland Security; and Ms. Jennifer Grover, Director of 
Homeland Security and Justice at the United States Government 
Accountability Office.
    We welcome you all. And pursuant to committee rules, all 
witnesses are to be sworn before they testify. If you will 
please rise and raise your right hands.
    Do you solemnly swear or affirm that the testimony you are 
about to give will be the truth, the whole truth, and nothing 
but the truth?
    Thank you. Please be seated. And let the record reflect the 
witnesses all answered in the affirmative.
    In order to allow time for discussion, we would appreciate 
it if you would limit your verbal testimony to 5 minutes. Your 
entire written statement will be entered as part of the record.
    Mr. Neffenger, you are now recognized for 5 minutes.

                       WITNESS STATEMENTS

                  STATEMENT OF PETER NEFFENGER

    Mr. Neffenger. Good morning, Chairman Chaffetz, Ranking 
Member Cummings, and distinguished members of the committee. I 
thank you for the opportunity to testify on my vision for 
evolving the Transportation Security Administration. My 
leadership perspective is shaped by more than three decades of 
military service and crisis leadership. Fundamental to my 
approach are a well-defined statement of the mission, clear 
standards of performance, training and resourcing that enable 
the workforce to achieve success, appropriate measures of 
effectiveness, and an unwavering pursuit of excellence and 
accountability.
    I want to thank Inspector General Roth and Director Grover 
for the oversight that they have provided at TSA. And I want to 
specifically thank Mr. Roth for his encouraging assessment of 
our new direction.
    That direction is a reflection of my vision on how we 
approach the continuing evolution of TSA. I'm now 4 months into 
the job, and I've traveled to dozens of airports and Federal 
Air Marshal offices across the country. I've also visited our 
European partners in the United Kingdom, France, and the 
Netherlands, and I've met with stakeholders from the airlines, 
travel industry, and airport operators. I've engaged surface 
stakeholders in passenger rail and light rail across the 
country and in Europe.
    I have been thoroughly impressed with the professionals who 
occupy our ranks, and I've been equally impressed with the 
collaboration across the transportation enterprise and the 
range of capabilities our Federal, State, and local partners 
bring to bear across every mode of our transportation system. 
These complex systems require that we examine them and consider 
them as a whole, that we integrate the wide range of public and 
private capabilities to close gaps, reduce vulnerabilities and 
counter threats, that we benchmark and apply best practices 
across the enterprise, and that we seek global consistency.
    However, as I have stated in previous hearings on this 
topic, my immediate priority has been to pursue solutions to 
the Inspector General's recent covert testing findings, which 
were, unfortunately, leaked to the media in May of this year, 
and we are making significant progress in doing so.
    The Inspector General's covert tests focused on an element 
of the aviation security system, specifically the Advanced 
Imaging Technology capability within the checkpoint. These 
tests identified areas for improvement, with which we 
concurred. The system, as a whole, remains effective, and as a 
result of these tests, has only gotten stronger.
    In response, TSA implemented an immediate action plan to 
ensure accountability, improve alarm resolution, increase 
effectiveness, and strengthen procedures. We've also responded 
vigorously by implementing Secretary Johnson's 10-point plan, 
as previously referred to. And to ensure we don't repeat past 
failures, of utmost concern, from my perspective, was 
determining root causes of the problem.
    Our conclusion is that the screening effectiveness 
challenges were not merely an office or performance problem, 
nor were they a failure of the Advanced Imaging Technology. The 
AIT has greatly enhanced our ability to detect non-metallic 
threats, and continues to perform to expected standards when 
deployed and used properly. As we look at the people, 
processes, and technology, strong drivers of the problem 
include leadership focus, environmental influences, and gaps in 
system design and processes.
    There was significant pressure to quickly clear passengers 
at the risk of not completely resolving alarms. Our analysis 
also revealed that our officers did not fully understand the 
capabilities of the equipment, and several procedures were 
inadequate to resolve alarms. We have trained our officers to 
understand and use equipment properly, and we have corrected 
our procedures.
    Solutions require a renewed focus on security, revised 
procedures, investments in technology, realistic and 
standardized training, a new balance between effectiveness and 
efficiency, and support for our frontline officers. We will 
continue to partner with the airlines, airport operators, and 
the trade and travel industry to identify solutions that can 
reduce the stress on the checkpoint, and we must right-size and 
resource TSA appropriately.
    We've begun that process in earnest, and I can report that 
we have a principled approach in place designed to correct the 
immediate challenges while ensuring that this problem doesn't 
happen again. Our mission essentials training conducted in 
August and September, with every frontline officer and leader 
across TSA, has helped reset our focus on security 
effectiveness, and most critically, we have enhanced our 
officers' knowledge and understanding of the screening system.
    Longer term, our self-examination has given insight into 
how we must evolve. We face a critical turning point in TSA, 
both to address these recent findings, and to begin our 
investment in a more strategic approach to securing the 
transportation sector. We need to measure security to drive an 
institutional focus, and what we measure is what our leaders 
and officers will pay attention to. Our approach needs to be 
adaptive and risk-based, constantly reassessing assumptions, 
plans, and processes, and we must be able to rapidly field new 
ways of operating. We must rethink how we invest in technology. 
Our adversaries remain intent on attacking the transportation 
sector, and our investment in new tools must exceed the speed 
of the enemy's ability to involve.
    Most importantly, we must deliver an effective system and 
earn the confidence of the traveling public through competence, 
disciplined performance, and professionalism. I've conveyed 
these standards to our workforce, and I commit to you that we 
will continuously pursue these objectives.
    Chairman Chaffetz, Ranking Member Cummings, I want to 
assure you that TSA is an intelligence-driven, counterterrorism 
organization, and I know that we are up to the challenges we 
face. We are on the front lines of a critical counterterrorism 
fight, and our workforce is willing and able to do the job.
    Thank you for the opportunity to appear today, and I look 
forward to your questions.
    [Prepared statement of Mr. Neffenger follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Chairman Chaffetz. Thank you.
    Inspector General Roth, you're now recognized for 5 
minutes.


                  STATEMENT OF HON. JOHN ROTH

    Mr. Roth. Thank you. Good morning, Chairman Chaffetz, 
Ranking Member Cummings, and members----
    Chairman Chaffetz. If you could maybe just bring the 
microphone straight up to your--that would be great.
    Mr. Roth. My apologies.
    Good morning, Chairman Chaffetz, Ranking Member Cummings, 
and members of the committee. Thank you for inviting me here to 
testify today.
    Throughout this year, I have testified, before this 
committee and others, regarding my concerns about TSA's ability 
to execute its important mission. I highlighted the challenges 
TSA faced. I testified that these challenges were in almost 
every area of TSA's operations: Its problematic implementation 
of risk assessment rules, including its management of the pre-
check program; failures in checking--in passenger checkpoint 
and baggage screening operations; its control over access to 
secure areas, including management of its access badge program; 
its management of its workforce integrity program; its 
oversight of its acquisition and maintenance and screening 
equipment; and other issues we have discovered in the course of 
over 115 audit and inspection reports.
    We may be in a very different place now than we were in 
May, when I last testified about this before this committee. I 
believe that Administrator Neffenger brings with him a new 
attitude about oversight. Ensuring transportation safety is a 
massive and complex problem, and there is no silver bullet to 
solve it. It will take a sustained and disciplined effort. 
However, the first step to fixing a problem is having the 
courage to critically assess the deficiencies in an honest and 
objective light.
    Creating a culture of change within TSA and giving the TSA 
workforce the ability to identify and address the risks will be 
the Administrator's most critical and challenging task. I 
believe that the Department and TSA leadership has begun the 
process of critical self-evaluation, and aided by the dedicated 
workforce of TSA, are in a position to begin addressing some of 
those issues.
    In September, we completed and distributed our report on 
our most recent round of covert testing. While I cannot talk 
about the specifics in this setting, I am able to say that we 
conducted the audit with sufficient rigor to satisfy our 
professional auditing standards, and that the tests were 
conducted by our auditors without any specialized knowledge or 
training, and the test results were disappointing and 
troubling. We ran multiple tests using different concealment 
methods at eight different airports of different sizes, 
including large category X airports across the country, and 
tested airports who were using private screeners. The results 
were consistent across every airport. Our testing was designed 
to test checkpoint operations in real-world conditions. The 
failures included technology, TSA procedures, and human errors.
    The Department's response to our most recent findings has 
been swift. For example, within 24 hours of receiving 
preliminary results of OIG testing, the Secretary summoned 
senior TSA leadership and directed that an immediate plan of 
action be created to correct deficiencies uncovered by our 
testing. TSA has put forward a plan, consistent with our 
recommendations, to improve checkpoint quality in three areas: 
Technology, personnel, and procedures. This plan is appropriate 
because the checkpoint must be considered as a single system. 
The most effective technology is useless without the right 
personnel, and the personnel needed to be guided by the 
appropriate procedures. Unless all three elements are operating 
effectively, the checkpoint will not be effective.
    We will be monitoring TSA's efforts and will continue to 
conduct covert testing. Consistent with our obligations under 
the Inspector General Act, we will report our results to this 
committee as well as other committees of jurisdiction.
    I believe that this episode serves as an illustration of 
the value of the Office of Inspector General, particularly when 
coupled with the Department leadership that understands and 
appreciates objective and independent oversight. This review, 
like dozens of reviews before it, was possible only because my 
office and my auditors had unfettered access to the information 
we needed.
    I believe I speak for the entire IG community in expressing 
my gratitude to this committee for the legislation currently 
pending in the House, H.R. 2395, The Inspector General 
Empowerment Act of 2015. This legislation would fix the 
misguided attempt by the Department of Justice to restrict 
access to records, and would restore IG independence and 
empower the IGs to conduct the kind of rigorous, independent, 
and thorough oversight that the taxpayers expect and deserve.
    This legislation would also improve and streamline the way 
we do business. For example, my written testimony gives an 
example of the powerful results we can obtain from data 
matching, which the legislation would streamline.
    Mr. Chairman, this concludes my prepared statement. I 
welcome any questions you or other members of the committee may 
have.
    [Prepared statement of Mr. Roth follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
    Chairman Chaffetz. Thank you.
    And Director Grover, we're pleased to have you here with us 
today, and you're now recognized for 5 minutes.


                  STATEMENT OF JENNIFER GROVER

    Ms. Grover. Good morning, Chairman Chaffetz, Ranking Member 
Cummings, and other members and staff. Thank you for the 
opportunity to discuss how TSA can improve the effectiveness of 
airport passenger screening.
    In the past 6 years, GAO has made 80 recommendations to 
TSA. TSA has concurred with nearly all of them, and has taken 
action to address most of them; in fact, TSA has fully 
implemented more than three-quarters, yet every year, our 
reports continue to find vulnerabilities in the system, many 
related to questions of security effectiveness. Why is that?
    Our body of work over the past several years shows that TSA 
has consistently fallen short in basic program management in 
several aspects. Three shortcomings stand out: First, failing 
to fully and rigorously evaluate the effectiveness of new 
technologies and programs; second, not establishing performance 
measures that fully reflect program goals; and third, failing 
to use program data to identify areas for improvement.
    There are many GAO reports that illustrate the shortfalls 
in each area. I will provide one example for each.
    First, TSA should fully evaluate effectiveness prior to 
adoption, to ensure that acquisitions and programs work, and to 
make sure that monies are well spent. In one example, in our 
review of TSA's body scanning technology, known as AIT, we 
found that TSA evaluated these systems in the laboratory for 
effectiveness, but had not addressed how airport screeners were 
using the systems in the airport environment. If airport 
screeners don't carry out pat-downs properly to follow up on 
the potential threats that are signaled by the AIT, and we know 
that this is an ongoing challenge, then the effectiveness of 
the overall screening will be diminished.
    A related issue is that when TSA is designing studies of 
effectiveness, it's critical that they follow established study 
design practices to make sure that the results that they get at 
the end of the day are valid. TSA has struggled with this. In 
one example from 2013, we found that a DHS study of behavioral 
detection indicators did not demonstrate their effectiveness 
because of study limitations, including the use of unreliable 
data.
    My second point is that TSA should adopt performance 
measures that reflect program goals to make sure that the 
programs are operating as intended after they've been stood up. 
As an example, in 2014, we found that TSA did not have 
performance measures to determine the extent to which the 
secure flight program accurately identified passengers on the 
no-fly selectee and other watchlists, one of the programs key 
goals.
    My third point is that TSA should put systems in place to 
monitor the data it collects in order to identify areas for 
improvement. As an example, in 2013, we found that TSA 
officials collected data on the effectiveness of their canine 
program, but were only considering overall pass and fail rates. 
TSA was missing the opportunity to determine if there were 
specific search areas, or types of explosives in which the 
canine teams were more or less effective, and to identify 
training needed to mitigate deficiencies.
    TSA is consistently responsive to GAO's recommendations, 
and TSA has addressed, at least to some degree, most of the 
examples I just mentioned. For example, TSA has modified its 
AIT testing to more fully evaluate effectiveness, and has 
implemented new procedures to analyze canine testing data. In 
addition, TSA is in the process of testing its behavior 
detection activities and developing new secure flight 
performance measures. But addressing GAO's findings, one by 
one, will not solve the underlying problem of an organizational 
culture that has allowed programs to be stood up without 
sufficient evidence of their effectiveness.
    It is critical that TSA systematically address the cross-
cutting program management weaknesses that I just described, 
through well-designed evaluations of their programs and 
acquisitions, and continuing reliance on appropriate 
performance measures that allow them to monitor key program 
goals over time, TSA would be well-positioned to achieve 
longstanding improvements in aviation security effectiveness 
and other operations.
    Chairman Chaffetz, Ranking Member Cummings, this concludes 
my statement. I look forward to your questions.
    [Prepared statement of Ms. Grover follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
    
    
    
    
    Chairman Chaffetz. We thank you. We'll now move to the 
question portion. We're going to start by recognizing the 
gentleman from Florida, Mr. Mica, for 5 minutes.
    Mr. Mica. Thank you, Mr. Chairman, and the ranking member.
    Administrator, I'm pleased to have you aboard. You come 
aboard when there's been unprecedented amount of criticism and 
findings of failure with your agency, so--and I know you're 
very intent, I had a chance to talk to you, on trying to 
improve things and correct these things. But I think what--
again, looking at this over 14 years and our objective, our 
objective is to keep the American people safe. In your 
statement, I guess, and statements we've had, you screened 660 
million passengers last year, I guess it was?
    Mr. Neffenger. That's right.
    Mr. Mica. Yeah. And what percentage of those folks actually 
pose a risk? It's got to be less than 1 percent. Would you 
agree with that?
    Mr. Neffenger. A very small percentage of people pose a 
risk.
    Mr. Mica. Yes. It's a very small percentage. But most of 
our resources are spent on building a bureaucracy, and there's 
over $2.3 billion on TSA bureaucracy to manage the 46,000 
screeners that Congress has put a cap on. We've actually seen a 
failure rate disclosed publicly with--from 30,000 screeners to 
46,000 screeners where things have gotten worse.
    You stated in your testimony, there are a number of actions 
that have been completed, including the following: Requiring 
screening leadership at each airport, oversight AIT operation, 
and training and things of that sort. I'm telling you, even 
when you get this done, you've just--you have created a system 
that doesn't address the risk. Your chances of failure are 
almost 100 percent with the current system, even with the 
training that you employ. I can thwart the AIT machines.
    It took me 2 years to get TSA just to look at the AIT 
machines, you don't know the history of that, because I knew 
what we had in place. The puffers didn't work, and I knew the 
threat was there for explosives, and it's still there, but we--
you all--and we've tried to put in different programs to make 
up for the layers that fail.
    Behavior detection. $1 billion was spent on behavior 
detection. We have hundreds, thousands of officers. And here's 
a report here by the Freedom to Travel USA, it says, ``In the 
airports where it's used, 50,000 travelers have been flagged. 
Zero of these were terrorists. Sixteen known terrorists passed 
through the behavior detection airports on at least 24 
occasions.''
    My whole point here is that you need to get out of the 
personnel business, back into the security business, turning 
TSA back into doing the things that will save us, the 
intelligence gathering, setting the parameters for someone 
else. You're not a very good personnel agency, nor will you be. 
The turn--the recruitment's horrible, the training's horrible, 
the retention is horrible. It just goes on and on.
    So, again, no matter what you do, if you don't address the 
risk and put our resources--we should be putting our 
resources--every instance in which we've stopped them has been 
first the public, the public. Since 9/11, since that--that 
morning when they found out on Flight 93, they attacked those 
terrorists and took them down. Richard Reid, it was the crew 
and passengers that stopped him, in every instance. The liquid 
bombers, they woke me up in Texas and told me about that. That 
was British and Israeli intelligence. But it's got to be our 
intelligence that saves the day. Refocusing that, get you out 
of the personnel business, get back into the security business, 
addressing that 1 percent.
    What's scary, too, is the 1 percent, the no-fly list and 
the other lists, we still don't have that right, according to 
some of the folks who have testified, some of the evidence that 
I've seen.
    So, again, I don't mean to give you a hard time, but, I 
think, please consider this. I sat, when we devised this system 
with the head of--and I told you this story, of maximum 
security facilities, and they--when you go into those, you get 
body cavity searches. And they told me even with that, which 
you're not going to do to 659,000--or 659 million Americans, 
this still--stuff gets through, contraband, drugs, weapons.
    So, again, I look forward to your response. You don't have 
to give it today, but I think if we change that out, get you 
out of the personnel business, into the security business, 
that's the best use of our resources.
    Mr. Chairman, too, I'd like to put this report in the 
record, if I may. It's the Freedom to Travel USA, TSA Failures 
by the Numbers. I think it's very enlightening, if you would 
grant that request.
    Chairman Chaffetz. Without objection, so ordered.
    Chairman Chaffetz. We'll now recognize the gentleman from 
Virginia, Mr. Connolly, for 5 minutes.
    Mr. Connolly. I thank the chair, and I thank the 
distinguished ranking member, my friend, Mr. Cummings.
    Administrator Neffenger, welcome. And I really welcome your 
ascension to this office. My confidence in you was reinforced 
when I read your testimony about the determination of TSA on 
root causes. And you said the underlying screening 
effectiveness and technology challenges, you've said, a 
disproportionate focus on the past has been on screening 
operation's efficiency rather than security effectiveness, 
which is, after all, the mission. Would you expand on that?
    Mr. Neffenger. Thank you, Congressman. As I mentioned in my 
opening statement and in my written statement, the--as we 
looked at root causes--and you really do have to look at root 
causes in trying to determine, you know, why it is that we saw 
the same failures repeatedly over time. So when you--when you 
have an operating agency that observes the same things over and 
over, it tells me that you haven't really figured out what the 
problem was.
    And so, when you look at root causes, it goes beyond just 
whatever happened at the checkpoint that failed. You have to 
determine what--what is it in your culture and in your 
organizational approach.
    If you recall in the early days of TSA, there was a great 
concern about the wait times, and there was a great deal of 
pressure on TSA to get people through the screening checkpoints 
faster. And there's a good reason for that. You don't want a 
lot of people packing up outside the sterile area. I think you 
have to be very careful, though, when you change--when you 
inject a concern like that to an organization, because what you 
measure is what you're going to get for performance.
    And, so, I really do believe that over time, what happened 
was a great deal of effort to ensure wait times were kept to a 
minimum, people were pushed through the checkpoint, that puts 
pressure on the screeners to clear passengers versus resolving 
the alarms that they present.
    And, so, in that slight nuance of difference between 
clearing a passenger versus resolving something that the 
passenger presents can change the effort you've put into 
looking for that, and we found that.
    Mr. Connolly. I think it's really important the point 
you're making, because it's very easy, bureaucratically, to 
check a box and say, well, what do you mean? We've improved 
efficiency 600 percent. Yeah, but that isn't the goal. That's a 
means toward reaching the goal. And keeping one's eye on the 
mission, making the main thing the main thing, is really 
important, and I thank you for doing that.
    Mr. Roth, and/or Ms. Grover, GAO has issued more than 25 
TSA-specific reports in the last 5 years. The catalyst for this 
hearing was covert tests that your agency, Mr. Roth, conducted 
of passenger screening process. What--what did you find from 
that covert operation?
    Mr. Roth. The specific results, of course, are classified, 
so I can't discuss them in this hearing, but what we found in a 
series of tests, which took place across the country at 
different airports of different sizes, using a variety of 
concealment methods by individuals who are auditors with no 
specialized training or skill, is a universal, disappointing 
performance by the TSA screening checkpoint.
    And, again, what we look at is the entire screening 
checkpoint system. It's not just the AIT, it's not just the 
people, it's not just the procedures, but how they work 
together.
    Mr. Connolly. Would it be fair to say, without compromising 
security, that some significant breaches occurred?
    Mr. Roth. Yes.
    Mr. Connolly. Very troubling.
    And, Mr. Neffenger, presumably you're aware of those 
findings?
    Mr. Neffenger. Yes, I am.
    Mr. Connolly. And has the agency taken corrective steps to 
try to address what Mr. Roth and his team discovered covertly?
    Mr. Neffenger. Yes, sir, we have. One of the first things I 
did--actually, when this became public, it became public during 
my confirmation process between the first and second 
confirmation hearings, I had a chance to meet with Mr. Roth, 
and then I met with Mr. Roth again after swearing in as 
Administrator, after being confirmed and swearing in. And one 
of the first things I wanted to do was understand the exact 
nature of the failures that occurred, how they represented, and 
so that we could begin to address the root causes, as you had 
mentioned earlier.
    We have put a tremendous amount of effort into not just 
determining the instant failures, but reaching back through the 
organization to figure out what systemically was going on that 
brought this to it, because as you may also be aware, we have 
had other such discoveries of failures in the past.
    Mr. Connolly. Mr. Chairman, it may be useful at some point 
to have a classified briefing where we get fully briefed on 
that.
    One final question I'm going to sneak in in my last 18 
seconds. But Mr. Neffenger, one of the problems, and you've 
raised it, too, that has occurred is, you know, because it's 
now a lucrative business to charge for baggage, it has forced 
passengers to try to compensate by bringing in overhead luggage 
as much as possible. This affects your business and your 
mission. Could you just address that?
    Mr. Neffenger. There's a lot more baggage coming through 
the checkpoint now than there used to be, and that baggage is 
much more packed with gear than it used to be. This is a 
challenge for anybody to screen it. I know that the airlines 
have been trying to--trying hard to enforce their one-plus-one 
rule, but sometimes that enforcement doesn't take place until 
you get to the actual loading gate and that--and so, multiple 
bags have come through the checkpoint.
    So we've been working very closely with the airline 
industry and with the airports to see what we can do to reduce 
some of that stress on the checkpoint, but it's just a fact of 
modern life that there's more stuff arriving at a checkpoint 
than used to arrive.
    Chairman Chaffetz. I thank the gentleman.
    I now recognize the gentleman from Michigan, Mr. Walberg, 
for 5 minutes.
    Mr. Walberg. Thanks, Mr. Chairman, and thanks to the panel 
for being here.
    I wasn't--I wasn't here in Congress when TSA was 
instituted, and I don't have a lot of answers to how you do it. 
I just know that when I enter the airport in Detroit, I go 
through multiple contacts with multiple agents, including TSA. 
I would also hasten to say at a meeting like this, while there 
are concerns and there are problems we have to deal with, 
overwhelmingly, I've been treated well by TSA even when they 
didn't know I was a Member of Congress. And the fact of the 
matter is that only two incidences can I remember the exact 
airport where I was not treated well: Los Angeles and Dulles. 
That says, for the most part, your personnel, doing a job I 
wouldn't want to do, are at least attempting to work with--and 
I want to applaud you for that. We can--we can jump on you, but 
I think there is also something to say about having an 
untenable job to do, where you have to be right all the time.
    And fortunately since 9/11, as a result of TSA's efforts 
and others' efforts, including airlines and passengers, we have 
not had a downed plane, and we want that to continue.
    But I do want to ask you some questions. Mr. Neffenger, in 
our hearing today, you have pledged to fix some things. During 
other public crises, other TSA administrators have pledged to 
fix things. What will be different this time?
    Mr. Neffenger. Thank you for that question. It really goes 
to what I was saying earlier, and that is, when you have--so my 
experience is--I've been in operating--an operator my whole 
career. I spent 34 years in the United States Coast Guard. In 
many respects, a lot of similarities between the Coast Guard 
and the TSA in this sense: both have--are mission-based 
organizations, both have, in some respects, missions that have 
a no-fail quality to them, both have a distributed frontline 
workforce that's responsible for carrying out that mission.
    So in my experience, what--what makes operating agencies 
challenging and exciting at the same time is, challenging in 
that you have something you have to do every single day, and 
that tyranny of the right now can lead you to simply address 
the problem in its--in its presentation. By that, I mean you 
have a failure at a checkpoint, you work with the team at that 
checkpoint, you work with the team at that airport and you say, 
Look, you failed, here's how you failed, don't do it again. 
That may seem like it fixes the problem, but it really doesn't 
over time.
    What you find is that--is that typically, if you have 
failures like that in a dedicated frontline workforce, and I 
really appreciate the words you had to say about that 
workforce, then it means you've got something more systemic 
going on, and it's hard sometimes for an operating agency to 
take the time to do that. I really----
    Mr. Walberg. How will you monitor that bigger picture, 
then?
    Mr. Neffenger. Well, it starts by recognizing that there is 
a bigger picture, and saying it out loud, so that's something I 
said when I first came in. Any time you have multiple failures 
that look the same over time, that means something else is 
going on. And, so, we're going to stop, we're going to look at 
the entire approach of the organization, how well do we 
understand our mission? How well have we articulated that 
mission in terms of what it needs to succeed? How well have we 
deployed the equipment that we think addresses that need? How 
well have we trained our people to work that equipment? And 
what kinds of processes have we given them and procedures? For 
example, we found that there were 3,100 independent tasks that 
we expected a screener to memorize. That's an impossible task. 
You can't do that.
    So we--it gets additive over time. So you've got to step 
back to first principles and say this is about the mission, 
first and foremost, and it's about the performance of that 
mission in an environment in which we have so much at stake. It 
pays--you have to look at what's already been done by third-
party independent auditors. I greatly value the work of the GAO 
and the IG's offices, because they give me a third-party 
independent assessment of what are some of those challenges, 
and I can use that as a way to go back and begin to dig into 
the deeper issues in the organization.
    Mr. Walberg. Let me add on to what my friend, Mr. Connolly, 
started with you, and I think it goes to this idea of bigger 
picture. How will you work with airports, airlines, and others 
to disrupt the incentives that can emphasize speed over 
security?
    Mr. Neffenger. Well, as I mentioned, I've met with a number 
of those of the--actually, all the major airlines in the U.S. 
as well as their associations and other stakeholders. It starts 
by recognizing that this is an interactive system. TSA doesn't 
work alone inside the aviation system. It works in conjunction 
with all the other players, and everyone has a role to play in 
the security of the system.
    And, so, it's not simply a hand-off in a transaction from 
one entity in the system to the other. It's a continuous 
interaction. And that interaction requires that they be aware 
of the challenges that their system imposes upon our 
responsibility for security, just as we have to be aware of the 
challenges that our security responsibilities impose on them. I 
will tell you that they've been very receptive to that.
    There's a lot more work we can do to connect more 
effectively to the various players in the system. And so, I've 
established a number of regular meetings now with my 
counterparts in the private sector as well as across the system 
to begin to address what I think are these longstanding, 
overarching issues that have been, not necessarily ignored, but 
have not been attended to appropriately.
    Chairman Chaffetz. I thank the gentleman.
    Mr. Walberg. I yield back.
    Chairman Chaffetz. I now recognize the ranking member, Mr. 
Cummings, for 5 minutes.
    Mr. Cummings. Thank you very much.
    Director Grover, when you were talking about the problems, 
I wrote two words, and I wrote the words ``culture gap.'' In 
other words, I think from just listening to you, a culture has 
been established, and I think that culture is, in part--and I 
want you all to comment on this. I'm just listening and 
reading. You know, the chairman will tell you again when we, 
when dealing with the Coast Guard--not the Coast Guard, but the 
Secret Service, one of the things that we worried about was a 
culture of complacency. Not just people are not good people, 
but you get used to nobody jumping over the fence at the White 
House, so you--because everything's going to be all right.
    And, so, what happens is that people get sort of lulled and 
slow, but it's a culture, and they--things are going to be all 
right. And then, Administrator, when you combine that with this 
thing about making sure you get the people through quickly and 
you put the quickness over, you know, the mission, then, I 
think, you have a combination for problems, and I think those 
kind of problems are very difficult to address, and I'm trying 
to figure out--first of all, would you comment on that, Ms. 
Grover?
    Ms. Grover. Yes, sir. Thank you for the opportunity.
    So TSA was originally stood up in a culture of crisis, 
where they had to be responsive, and they had to be responsive 
fast. But at this point, it is time to transition to a culture 
of accountability for effectiveness. I am--TSA definitely is 
aware of the importance of ensuring their programs are 
effective, and I appreciate Administrator Neffenger's remarks 
about enhancing that culture throughout the workforce. But at 
the end of the day, for GAO, it comes down to a very simple 
question, which is: Does the program work? And how do you know? 
And no matter how much the staff are educated in the current 
failures or retrained, no matter how much there is an emphasis 
on new SOPs, at the end of the day, there has to be 
measurement, like the Administrator said, and they have to have 
a systematic process to follow through to make sure their 
programs work, and that is what lies beneath a strong culture 
of accountability for effectiveness.
    Mr. Cummings. You don't know what you've just said. I think 
you hit--you just hit the nail quite well. So they started with 
a culture of emergency, and so everybody's, we got to make sure 
that we protect ourselves, and then when the emergency seems to 
wane, you can slowly move into what I talk about, the culture 
of complacency. But now we've got to change our whole dynamic 
and create a new normal, and that is a new normal of 
accountability.
    Now, you--you've got a plan, right? You have a plan?
    Mr. Neffenger. Yes, sir, I do.
    Mr. Cummings. And you plan to implement it by March of 
2016? Is that right?
    Mr. Neffenger. Well, there are a number of steps in that, 
but----
    Mr. Cummings. That's what I wanted to ask you. What will 
we--what will the status of the screening process be at that 
date? Will it have reached what you envision as peak 
effectiveness, or will it still be in the process or improving 
mode?
    Mr. Neffenger. Well, so in answer to that question, let me 
say, I think that you have to always be in a continuous 
improvement mode, I think you hit it on the head, otherwise you 
do go complacent. The day you think you get the screening 
process or security process right is the day you'll be 
defeated, and I believe that entirely. So this is continuous 
focus on the mission, continuous focus, and continuous 
evaluation through key measures of your performance of that 
mission.
    Now, that said, what have we done to address these 
immediate challenges? We've retrained the entire frontline 
workforce. And I know that sounds easy to say, but let me 
explain what that means. We went--we called it mission 
essentials threat mitigation, and we called it--I wanted to 
call it mission essentials for a reason. It's about reminding 
people that we have a mission, first and foremost, and it is 
truly a no-fail mission in the aviation system, and to remind 
them and to reactivate that desire in them that they exhibited 
when they raised their hand and said, I swear to support and 
defend the Constitution of the United States.
    Mr. Cummings. And how do you do that? How do you do that, 
what you just said?
    Mr. Neffenger. Well, I think you do--first, you say it out 
loud.
    Mr. Cummings. Right.
    Mr. Neffenger. It starts by at the very top of the 
organization saying what you do is critically important, and 
I'm going to make sure that everything I do is designed to make 
sure you succeed at your mission, to focus, first and foremost. 
So I start at the mission every day and I work backwards. That 
means I start with the junior-most person in this organization 
that's standing on a screening line, and I think about what it 
means for that individual to do their job effectively, and what 
do I need to do and what does everybody between me and that 
individual need to be focused on to make that happen? This 
isn't about me as an individual, it's not about making myself 
look good or anybody between me and that person; it's about 
every one of us remembering that we serve a higher order here, 
and we engage in a higher order.
    That is surprisingly important for a frontline workforce to 
hear. I learned that in my years in the Coast Guard. That--it 
may seem simple, but that's the most powerful thing you can--
you can tell somebody, is what you do is important, and it's so 
important that I'm going to spend every waking moment paying 
attention to getting that done right.
    Mr. Cummings. Just one last comment, Mr. Chairman.
    I hope that you took note of what Director Grover said, and 
I hope that in your discussions with your staff, that you--that 
you remind them about this, what she said: One time it was a 
culture that was about emergency, now it's about 
accountability, because I think that that makes a lot of sense.
    Mr. Neffenger. Yes, sir.
    Mr. Cummings. And hopefully we'll get another chance to ask 
a few questions. Thank you.
    Chairman Chaffetz. I thank the gentleman.
    I now recognize the gentleman from South Carolina, Mr. 
Gowdy, for 5 minutes.
    Mr. Gowdy. Thank you, Mr. Chairman.
    Mr. Neffenger, we're all, I guess, kind of creatures of our 
own personal experience, but I'll tell you, having--most of us 
travel on a regular basis. And the airports that I use, which 
are primarily Greenville, Spartanburg, and South Carolina, 
Charlotte, and DCA, I have never had anything other than 
professional encounters with TSA folks, ever. There's not a 
single instance where I can think of where it wasn't A-plus in 
terms of professionalism.
    So, you know, we're only creatures of our own--and I don't 
wear a member pin, so don't anybody think it's because they 
figured out what I do for a living. They didn't. And I don't, 
thank the Lord, look like most of my colleagues, so I don't 
think that it was for that reason.
    I think it's tough being in law enforcement, period. I 
think, quite frankly, without digressing into a broader 
conversation about that, I think it's become even tougher in 
the last couple years to be in law enforcement.
    So what I want you to tell me is where are your applicants 
coming from? What is the source of the poor morale, other than 
that you only make the news when something goes wrong? If 
there's a TSA agent who is involved in stealing, or if there's 
a TSA agent that does something wrong, that's when you make the 
news. But you don't ever make the news for just simple 
professionalism. So what's the source of the morale issues? 
Where do you draw your applicants from? And what is your plan 
on bolstering morale?
    Mr. Neffenger. Well, thanks for your question, Mr. Gowdy, 
and thank you for your good words about our workforce.
    I will echo the fact that I think the majority of the TSA 
workforce, particularly the screening workforce, are truly 
dedicated, responsible and--and patriotic Americans. These are 
people who, as somebody has already mentioned, have taken an 
oath to do a job that many people in this country would not 
want to do and very few people would choose to do.
    That said, so what's the source of morale? Again, my 
experience, it's a well-defined mission statement and a clear 
mission of importance. I think we have a clear mission of 
importance. I don't know that we've always clearly defined that 
to our workforce. So it's reconnecting the workforce to the 
desire that they had in the first place to join, to become part 
of something that's important, that means something and that 
means something to our Nation. That's first and foremost. 
That's what--that's what--that's what the military is all 
about, and that's what my experience there tells me.
    Then it's having clear and unequivocal standards of 
performance. And what I mean by that is what causes high morale 
is if people know that they're held to a high standard of 
performance, and that people who don't meet those standards 
aren't going to be part of your workforce anymore. So I think 
you have to--and you have to be consistent across that, across 
the organization.
    And then you have to train them appropriately; that is, you 
train them, train them in not just how to do their job, but how 
to engage the system, how the system works. I think we need to 
do some work on that score.
    One of the things that we discovered in the course of the 
root cause analysis after the covert testing failures was that 
we actually had not explained to the majority of the frontline 
workforce what the technology capabilities were, so what can 
the machines do, what can't they do.
    No one ever did that to me when I was in the military. They 
never handed me a piece of equipment and said, just go figure 
out how it works. So when you connect them to their system--and 
we never asked their opinion on what they thought of the 
challenges of working that checkpoint. You need feedback from 
your frontline workforce. This isn't just a one-way 
transmission. You've got to engage them.
    So I think the components of morale are clearly important 
mission; support for that mission; training to accomplish the 
mission; understanding of the equipment that we give you to do 
that; and then engaging you and getting some feedback from you 
and letting you be part of the solution that goes forward. 
There's nobody who knows that mission better than the people 
who are conducting it every day.
    So those are the things that we're start--that we're 
putting into place. It takes some time to see the results of 
that, but I see lots of opportunity on those points to really 
reengage the workforce in a much more effective way and to 
actually activate, as I said, that--that which brought them to 
the job in the first place.
    With respect to recruiting, we currently use a third-party 
contractor to help screen recruits, but we recruit from all 
over the country and we recruit from all walks of life. The 
astonishing thing is the talent that exists within the 
workforce. I have people with Ph.D.'s who are frontline 
screeners who have retired and come back into the workforce, I 
have people with music degrees, I have people from all walks of 
life. So there's a--as you might expect in a workforce of 
44,000 screeners, you have a broad range of people at all ages.
    Mr. Gowdy. One last question, because my time's almost up. 
If we were to interview 100 folks who had left, not for cause, 
but just left, what would be--what would be the dominant reason 
they cited for why they--either their expectations weren't met, 
or they lost interest? Why do folks leave?
    Mr. Neffenger. Well, I'll give you some thoughts I have, 
because I haven't--I haven't done those interviews myself. I 
think it's probably a combination of factors. You always have 
some people who just decide that it's not the job for them, and 
they move on. But let's address some of those concerns that you 
have with morale. I think it's not feeling like you've--you're 
doing the mission that you thought you were going to be hired 
to do.
    So I think if I'm a screener and I think it's about 
effectiveness and screening properly, and I'm being told to 
move people through the line more effectively, that's probably 
going to cause me to say I'm not sure that this organization 
cares about the things that they said they did. It's, did I get 
the proper training? Do you feel like I'm being supported? Do I 
feel like I have advancement opportunities? And do I get 
continuous development over the course of my career.
    I think all of those are the things that go into deciding 
whether or not you're with an employer you'd like to stay with, 
or you want to move on and look for some other opportunity.
    Chairman Chaffetz. I thank the gentleman.
    We'll now recognize the gentleman from Massachusetts, Mr. 
Lynch, for 5 minutes.
    Mr. Lynch. Thank you, Mr. Chairman. And I thank the ranking 
member. Thank you to our panelists, Mr. Neffenger and Inspector 
General Roth and Ms. Grover. Thanks for your help. I think 
you've been very honest in your testimony, both with the 
strengths and failures.
    Just following up on Mr. Gowdy's questions, Mr. Neffenger, 
have you ever thought about offering a bonus or a bounty for a 
screener that actually gets somebody with a gun coming through 
the checkpoint or with some malicious intent?
    Mr. Neffenger. Well, you know, we've actually looked at all 
sorts of new incentive--potential incentive programs. I'm a big 
fan of incentivizing the right behavior.
    Mr. Lynch. Okay. I want to move on, because I have got some 
other questions. This is such a target-rich environment; we 
have so many problems. I actually reviewed the--I went to the 
classified briefing with the chairman and other members, the 
ranking member. And while Inspector General Roth has used the 
word, you know, ``disappointing'' and ``troubling,'' I would--I 
would use ``pathetic'' in looking at the number of times people 
got through with guns or bombs, you know, these covert testing 
exercises. It really was pathetic.
    And when I say that, I mean pitiful, the number of times 
people got through. I mean, I fly a lot, my family flies a lot, 
and just thinking about the breaches there, it's--it's 
horrific. So one of the things we can do is just be honest 
about the degree of the breaches and the scope of it, and I 
think you've got at that. I think you've really looked at the 
cultural problems here and what we've got to get at, and I 
appreciate that. So I'm supporting you. I'm not just 
criticizing you. I'm supporting you in your changes.
    Mr. Lynch. But the nature of the threat has evolved as 
well. So now you have ISIS asking for lone wolf attacks which, 
you know, probably presents a greater vulnerability to rail, 
passenger rail security, than it does to airlines perhaps. But 
I just--I'm just wondering about what we're doing to evolve 
with that threat? And the other big gap that I see is in terms 
of people with credentials in airports in secure areas, we're 
having major gaps there. We're letting people in that have 
connections with terrorism. There's indicia of connections with 
terrorism, and they're getting through our screening process 
and getting into secure areas of the airport, and being awarded 
credentials. I think we had 73 instances of that.
    Are we re-doing this? And also, you know, I'd like 
Inspector General Roth also to speak to that issue, because I 
know you've been relentless and you've been very good about 
this. In the past, there's been denial. I don't think we're 
hearing that from you, Mr. Neffenger, I don't think we are at 
all. But in the past, there has been a culture of denial. And 
we need to get at this. We're going to have a major, major 
disaster here on a commercial airline or on a train, and we're 
not going to be able to--well, people will say we didn't see 
that coming, but we did, we did, we have, we see it now. And 
I'm just wondering what our response is going to be to address 
that issue?
    Mr. Neffenger. Let me see if I can address a couple of the 
points you made there with respect to what we're doing. Let me 
start with the last point first, on the insider threat concern, 
people with badges in airports. As you know, there's been some 
concern about the security of the badge population. This is a 
trusted population, or should be a trusted population. So how 
do you determine whether your trusted population is truly to be 
trusted? So what safeguards do you put in place? I think 
there's work to be done there. And I'm encouraged by Secretary 
Johnson's reach to, earlier this year, prior to my 
confirmation, he had asked the Aviation Security Advisory 
Committee, which is a standing statutory committee of industry 
members that advise the Department and the Administrator.
    They took a hard look at this problem, and they came up 
with 28 recommendations, with which TSA fully concurred and is 
in the process of looking for an implementation plan for that. 
That said, what did they say was the challenge? First of all, 
it's having real-time access to the appropriate databases to 
screen people. TSA does, in fact, recurrently vet against 
terrorist databases. One important point to note with respect--
--
    Mr. Lynch. We've got gaps in that. You're taking an awful 
lot of time to give me very little answers.
    Mr. Neffenger. With the 73 members, it's actually 69 
discreet individuals, they were not actually on the terrorist--
any terrorist watchlist, but they had incomplete indicia in 
what is called the Terrorist Information Datamark Environment. 
But their--but that information wasn't sufficient to raise to 
known or suspected terrorist status. I'm not just mincing 
words. It's just clear that they were not--and we don't make 
those determinations, that's an FBI determination.
    With respect to ensuring that we pay attention to the 
evolving threat, I am directly connected to my counterparts 
across the intelligence community. I get a daily intelligence 
briefing. It's a synthesis of what everyone is seeing. I'm very 
concerned about how complex and dynamic the threat environment 
is. I think, in some respects, it's the most complex we've seen 
since 9/11. And what makes groups like ISIL particularly 
concerning is that they are intending to inspire, and the 
intent to operation phase is compressing.
    Mr. Lynch. Mr. Chairman, could I ask the Inspector General 
if he would give his version of that? I didn't hear a lot 
there. But I still think we've got a problem. And I'm still 
worried about it. And I'm not hearing, you know, decisive 
action being taken in that regard.
    Chairman Chaffetz. We're well over time. But if the 
Inspector General would care to comment.
    Mr. Roth. Just briefly. And thank you for the question.
    Mr. Lynch. Thank you for your indulgence, Mr. Chairman. I 
appreciate that.
    Mr. Roth. This goes to sort of what I call beyond the 
checkpoint. Certainly, our focus has been on the checkpoint. 
But there's a lot of security risk that is out there that is 
beyond the checkpoint. Aviation worker vetting is one of them. 
For example, we did an audit of TSA's job as a regulator. In 
other words, the airports have the duty to manage the sight of 
badges, the restricted access badges and adjudicate criminal 
histories of those aviation workers. And, yet, what we found in 
a recent audit, for example, is that as a regulator, TSA only 
examines, perhaps, 1 percent of all the adjudications that the 
airports do.
    So any time you have an issue where the airports have part 
of the responsibility, and TSA has part of the responsibility, 
you have those seams in there. That's what worries me. So the 
fact that you have those seams, as well as how TSA is doing as 
a regulator, I think we're going to be paying more attention to 
that as time goes on.
    Mr. Lynch. Thank you. Thank you, Mr. Chairman.
    Chairman Chaffetz. Thank you. I'll now recognize myself for 
5 minutes. And, Administrator, quick, quick answers if we 
could. If you try to bring a gun through a checkpoint and you 
get caught, what happens to that person?
    Mr. Neffenger. Depends on the State that you're in and the 
airport you're at, but it's turned over to local law 
enforcement.
    Chairman Chaffetz. But do they go on a database that you 
administer? Do you note that person in your database?
    Mr. Neffenger. We do, we do note that individual's name, 
yes.
    Chairman Chaffetz. Do they go on a no-fly list?
    Mr. Neffenger. They do not necessarily go on a no-fly list. 
It depends upon the nature of the, of how they present it. The 
no-fly list, as you know, is a terrorist watchlist.
    Chairman Chaffetz. Right.
    Mr. Neffenger. And it's managed by, primarily by the FBI. 
So the no-fly list, you specifically put on based upon your 
connection as a known or suspected terrorist.
    Chairman Chaffetz. So trying to bring a gun onto an 
airplane does not put you into a category of potentially a 
nefarious terrorist type of person, correct?
    Mr. Neffenger. It will ensure that you get increased 
scrutiny when you travel. And you'll lose--if you're a pre-
check member or an expedited screening member, you'll lose 
that. And you'll lose that----
    Chairman Chaffetz. For how long?
    Mr. Neffenger. For a minimum of 90 days. It depends upon 
the nature of the incident.
    Chairman Chaffetz. So you try to bring a gun on a plane, 
whether it's an accident or not, and just for 90 days you just 
don't get pre-check, that's the penalty?
    Mr. Neffenger. You'll get additional, you'll get 
significant additional screening, which will include----
    Chairman Chaffetz. But you go day 91, you get back into 
pre-screen. I saw somebody who was pretty well-known in Utah, 
they were found to have a gun. They said it was an accident. 
I'm sure it was. But I also saw that person back in pre-check 
pretty quick. And life goes on. If you're on a no-fly list, 
does that mean you can't fly?
    Mr. Neffenger. Unless they're given a specific waiver 
request that comes from the FBI, yes, sir, that's correct.
    Chairman Chaffetz. So if you're on the no-fly--how many 
people are on the no-fly list?
    Mr. Neffenger. I'll have to get you that number. I don't 
know. I don't know off the top of my head.
    Chairman Chaffetz. What percentage of the TSA's time is 
spent on aviation? And where are the other areas in which 
you're allocating resources?
    Mr. Neffenger. The vast majority of our effort is spent in 
the aviation security system, because it's the Federal 
responsibility.
    Chairman Chaffetz. Right.
    Mr. Neffenger. So if you're just looking at allocation of 
resources, you've got a large personnel component of that, 
which takes a great deal. It's over 90 percent of our resources 
are on the aviation----
    Chairman Chaffetz. But what other things is the TSA 
spending their time on?
    Mr. Neffenger. We have a responsibility across all surface 
modes of transportation, so passenger and light rail, over-the-
road motor carriers and buses, pipelines, and maritime. But 
maritime we do in conjunction with the U.S. Coast Guard.
    Chairman Chaffetz. Tell me a little bit more, if you could, 
I want to go Director Grover. There are some things that have 
been on this list that you've been concerned about for year 
after year after year. And I really did like, as Mr. Cummings 
did, how you solve that cultural problem. But does anybody have 
any consequence if they fail in this mission? I mean, are they 
holding people accountable?
    Ms. Grover. We have a study underway on that issue right 
now. There are annual exams that the screeners have to pass in 
order to keep their jobs. Beyond that, there are requirements 
for retraining if there are errors.
    Chairman Chaffetz. What about--and maybe the Inspector 
General or the director can answer--the behavioral profiling 
part of this, the SPOT part of the program, can you comment on 
this real quick, how well that's being implemented?
    Ms. Grover. Sure. This is about $200 million a year, and it 
is for behavioral detection activities. And the premise is that 
the officers will be able to spot individuals who pose a threat 
to the Nation's security.
    Chairman Chaffetz. Does it work?
    Ms. Grover. TSA doesn't have evidence that is sufficient 
for GAO. So we don't know.
    Chairman Chaffetz. We don't know?
    Ms. Grover. We don't know.
    Chairman Chaffetz. Inspector General, have you looked at 
this at all?
    Mr. Roth. We looked at this in May of 2013. What we found 
is that there were no metrics that TSA had provided as far as 
what success looks like in the program. They had very poor data 
collection. They had insufficient training of the BDOs. I mean, 
keep in mind what the whole idea behind this is, that you're 
going to be able to take this population and figure out who it 
is that's the greatest risk.
    Chairman Chaffetz. Now, are they putting too many--sorry, 
I'm jumping because my time has run out. Are they putting too 
many people into the TSA pre-lines?
    Mr. Roth. That was our concern. And based on several, sort 
of, audits that we did in the spring of this year, we believe 
that the administrator has taken fairly significant and drastic 
action to reduce the number of individuals in the pre-check who 
had not been individually vetted. We made a number of 
recommendations. The prior administrator had rejected those 
recommendations. But since Administrator Neffenger has come in, 
there has been a change as to whether or not those 
recommendations are adopted.
    Chairman Chaffetz. And this is--again, my concern here is 
that the behavioral profiling is an important part of what 
we're doing. But how to train and implement that is a critical 
component. I'm also a big fan of the K-9 teams. They're mobile. 
There's a perception that they are able to detect things that I 
think would make somebody very nervous. The presence of a K-9 
in conjunction with behavioral profiling, going through a metal 
detector, would be much more effective and efficient. It's 
certainly what the military came to the conclusion of doing. 
And I think we need to pay keen attention to that. My time has 
expired. I now recognize Ms. Kelly for 5 minutes.
    Ms. Kelly. Thank you, Mr. Chair. Good morning. Screening 
lanes designated as pre-check lanes are available at more than 
150 airports, according to TSA's Web site. Travelers who go 
through such lanes receive expedited screening. There are 
several ways that travelers can access the pre-check lanes. 
Under one procedure, individuals apply to the program, pay a 
fee, provide data on themselves, and undergo background checks. 
If an applicant is determined to be a low-risk flyer, the 
applicant is enrolled in the pre-check program. However, TSA 
has been directing some travelers to the expedited pre-check 
lines, even if they did not enroll in the program. 
Specifically, travelers can be directed to the pre-check lanes 
through procedures that have been called managed inclusion 1 
and managed inclusion 2.
    Administer Neffenger, in your testimony, you wrote that at 
your discretion, TSA has phased out the practice known as 
managed inclusion 2. Can you discuss what this program was and 
why it was ended, and what has been the impact of the 
elimination of this program on passenger volume in expedited 
screening lines?
    Mr. Neffenger. Yes. The managed inclusion 2 program that 
you referred to was a term given to the practice of randomly 
assigning people that were in a standard screening lane to the 
expedited screening lane. And it was simply done with a random 
generator. You would get a yes/no, and they would move people 
in. That was pushing at its peak about 14 percent of average 
daily travelers through expedited screening lanes. And these 
are people who had not been through the pre-check, through any 
kind of a pre-check vetting. There were some things that were 
done that were intended to buy down the risk of those 
individuals, some additional randomized measures that were 
taken after you got pushed into that lane.
    It was my opinion, when I took over, that that was an 
untenable risk. And so I discontinued that practice. And as of 
September 12, it was eliminated completely. We had to ramp it 
down slowly so we didn't shock the system. But we eliminated 
that completely.
    Ms. Kelly. How long did that go on?
    Mr. Neffenger. How long did that process go on? I think it 
was about a year and a half or so that that was run. There's 
another form of moving of people into expedited screening 
lanes, a much smaller number, you referred to it as managed 
inclusion 1. But what it really is is the use of passenger-
sniffing K-9s to randomly assign some people from standard 
screening into the expedited screening lanes, but using the K-
9s. And then additional screening measures are applied to each 
of them. That's a very small percentage of the daily travelers, 
and I'll get you the exact number on that. But I'm a big fan 
and a big proponent of a fully-vetted population in an 
expedited screening lane. I think the only way we can--going 
back to the earlier comments about risk-based security, I 
really want to know as much as I can about an individual 
traveling as they come through, given that the vast majority of 
people are safe to do so.
    So the goal is to significantly expand the truly vetted 
pre-check population over the coming months, and to completely 
eliminate the random assignment of anyone in the pre-check lane 
who's not already been vetted precise.
    Ms. Kelly. Maybe I missed this, but do you feel that more 
people are going through the pre-check program so they are, 
they can go through the faster lines? Because it seems like the 
last couple of times I've traveled, there's been many more 
people on the pre-check line, and I'm at O'Hare, so.
    Mr. Neffenger. Well, we're seeing a huge spike in 
enrollments over the past couple of months. So we're averaging 
about 50,000 enrollments a month right now, which is 
encouraging to me. And that's before the response to our recent 
request for proposals to expand the marketing opportunities for 
up to three additional private sector vendors to look for more 
retail opportunities to enroll in pre-check.
    I know that I've worked with--talked with the airlines and 
the travel industry. They're advertising, and if you've flown 
recently, you may have seen on the in-flight screens 
advertisements for pre-check. So the industry is working very 
hard to increase enrollments as well.
    Ms. Kelly. Thank you. Inspector General Roth, you wrote 
that you were pleased to report that we have recently made 
significant progress in getting concurrence and compliance with 
recommendations. The Inspector General's Office has made 
regarding pre-check, but that TSA is continuing to use some 
risk-assessment tools you have recommended that they 
discontinue. To that extent, can you--in this open setting, can 
you discuss the recommendations your office has made to the TSA 
regarding access to expedited screening processes that TSA has 
not acted on at this point?
    Mr. Roth. Certainly. And thank you for that question. Just 
as an overlay, we had a number of open recommendations, or 
recommendations that TSA did not agree with. And those are set 
forth, I think, starting at about page 20 of the appendix of my 
testimony. And one of the things that I wanted to do was 
highlight in bold those that have changed in the last 6 months. 
And it is significant. There's almost no disagreement now 
between TSA and the Office of Inspector General as to what 
needs to be done.
    There is a fairly narrow point, and unfortunately, because 
this is an open setting, it's not possible to discuss it, but 
there's a certain risk profile, a certain type of passenger 
that we believe should not be on expedited screening. But we 
are in discussions with TSA about it. These are good-faith 
discussions as to what is an appropriate level of risk. And I'm 
highly confident we're going to get to a place that both 
protects the American people but also moves passengers in an 
expedited way.
    Ms. Kelly. I have one more. And does TSA--am I past the 
time?
    Chairman Chaffetz. Yes.
    Ms. Kelly. Oh, I'm sorry. I yield back.
    Chairman Chaffetz. Thank you. I now recognize the gentleman 
from North Carolina, Mr. Meadows, for 5 minutes.
    Mr. Meadows. Thank you, Mr. Chairman. I thank each of you 
for your testimony. Inspector General Roth, I'm glad to hear 
that you say that a lot of the disagreement has disappeared. 
Because previously, that was a major concern, as we had GAO and 
the IG making recommendations, and yet, TSA somehow believes 
that they had their Carnac hat on, and they're able to figure 
out what to anticipate and what not to anticipate.
    So I would encourage that continued, I guess, partnership. 
But speaking of partnerships, I want to focus on the 
partnership for public service, and specifically, with regards, 
Administrator, to low employee morale. We have held hearings in 
this very room about some of the worst places to work, which, 
perhaps, that title was not the best title to pick. But we've 
also found that there is a tremendous opportunity in terms of 
employee morale on how to encourage the workforce. Your survey 
has consistently--well, let's just say that it's not something 
that you would try to attain.
    Do I have your commitment today to reach out to some of 
those agencies that get good marks on that survey to find out 
the best practices that they have? NASA, in particular, 
continues to get high marks? Do I have your commitment to do 
that?
    Mr. Neffenger. Yes, sir. And so does the workforce.
    Mr. Meadows. Okay. Let me go a little bit--Director Grover, 
let me come to you, because I'd like you, if you could, briefly 
summarize some of your concerns as it relates to the AIT 
machines, and the procurement thereof, and some of the 
challenges that we've had there.
    Ms. Grover. That's a really important issue because it is 
one of the main technologies that TSA relies on for screening 
passengers. What we originally found was that TSA had 
considered the effectiveness of the technology in a laboratory, 
but hadn't considered the broader picture of the employees who 
use them in the airport environment. And they have taken steps 
to address that in the procurement of the next version of the 
AIT systems.
    They have begun measuring the effectiveness of the entire 
system, and looking at the detection rate of the entire system 
working together, and that's really important. One 
recommendation that we still have open is that TSA should pay 
close attention to its understanding of the false alarm rate on 
those machines. It is significant. And it has repercussions for 
both security effectiveness, because if screeners are used to a 
high false alarm rate, then they begin to think that there may 
not be anything there when the alarm goes off.
    And it also has repercussions for financing. Because every 
time the machine alarms, that person has to go through a pat-
down. So if the false alarm rate could be reduced, then it 
would have financial implications as well. And that is 
something that TSA is working on. But they do not yet have 
system-wide understanding of the operational false alarm rates.
    Mr. Meadows. So, Administrator, I see you shaking your 
head. You're willing to work with GAO on that and make sure 
that we come up with a matrix on how to--here's one of the 
concerns I have. We all talk about how we're going to work on 
it. And, yet, we don't really put parameters in there to judge 
whether we're successful or not. So will you work on a matrix 
that satisfies GAO as it relates to false alarms?
    Mr. Neffenger. Not only that, but we're actually, we've 
been working very hard to completely restructure the process we 
use for doing this. I think that Director Grover has raised 
some important points. And they're key to--they are the key 
challenges that we face. But you can't do it unless you change 
the way you do business. So it's really given us an 
opportunity, it's given me an opportunity to completely 
restructure the way we do business.
    Mr. Meadows. All right. Let me, when we talk about 
restructuring the way that we do business, one of the things 
that happens a lot is administrators come here and say we just 
need more money. And I think that on, in a bipartisan fashion, 
we're willing to give you the resources necessary to do it if 
you're willing to look at not only the recommendations that the 
IG and GAO have looked at, but look at recreating the way that 
you do business from a security standpoint.
    The chairman mentioned K-9 units. Is there a plan to look 
at K-9s, to bring them in during those high-peak, high times of 
travel, you know, not 1 a.m. In the morning, you know, when you 
have two TSA personnel there, but during those--to help 
alleviate some of the backlog? Are you willing to come up with 
a proposal and submit to this committee on how you might 
implement that?
    Mr. Neffenger. I will. In fact, I think I have a good story 
to tell this committee with respect to K-9s. One of the first 
things I did was look at the current disposition of K-9s units, 
K-9 teams across the Nation, repositioning a number of those 
from small, lesser-traveled airports to the large, high-volume 
airports. We're bringing a number of new teams on board this 
year. I will get you a full report for the committee, because I 
think it's a good report, and it shows that we're moving, I 
believe, in the right direction with respect to thinking of the 
system.
    And I just want to make one comment with respect to your 
comment, I absolutely agree with you that you have to take a 
systemic view of this. If you look at discrete elements of the 
system, all you'll do is look at discrete elements of the 
system, and you won't think about how they interact with one 
another. So it's looking at the entire environment that we call 
aviation security, and understanding how all of these 
components interact with one another and how effective they 
are. It speaks to everything from false alarm rates to the 
proper use of K-9s to other things. And I'm happy to provide a 
much fuller brief at the committee's discretion on how we're 
doing that.
    Mr. Meadows. I yield back.
    Chairman Chaffetz. I thank the gentleman. I will now 
recognize the gentlewoman from the District of Columbia, Ms. 
Norton, for 5 minutes.
    Ms. Norton. Thank you very much, Mr. Chairman. This is an 
important hearing. Before I ask my questions, Administrator 
Neffenger, this is a copy of the District of Columbia license. 
We've had to have the Administrator in, the Deputy 
Administrator in, because it changed from saying Washington, 
D.C. to saying District of Columbia. And, apparently, this 
really befuddled the screeners. And so some of them asked for 
their passport because they--this license had no sense of the 
place where you are now wasn't recognized. So I want to provide 
you with a copy of this before you leave so that kind of 
periodic reminders can be made. This was a change. I understand 
it was changed from Washington, D.C., and there was an attempt 
by the Administrator, the Deputy Administrator worked closely 
with me. Since you're new, I want to make sure that this 
doesn't have to come up on your watch.
    Mr. Neffenger, I have sat, for example, and seen what we 
have experienced at the airport, mentioned with respect to 
screeners who try to get, who sit, for example, at the Capitol 
or in Federal buildings. I must say, I think this needs a study 
by psychologists, people who know something about the human 
mind and how it operates, because all you have to do is ask for 
a GAO study, and you will always get that they, in fact, don't 
catch bombs, they don't catch pistols.
    We need to learn more, instead of just trying to catch 
people, because we are getting the same results no matter where 
they are, whether they're magnetometers or whether they are 
TSA. For example, for TSA, we have had people who bring bombs 
in shoes to try to detonate their shoes. We've had a so-called 
underwear bomber. And it's interesting to note that with 
respect to those items, that they went through multiple layers 
of security. And it was passengers, not TSA, who, in fact, were 
called on to put down those very dangerous people.
    This leads me to ask whether or not TSA is really 
equipped--for example, to discover these, we had this matter 
before the Congress, these plastic handguns. I mean, if they 
can't find ordinary items like bombs and pistols, and they are, 
as you can see, very inventive, what I'm wondering is, does TSA 
have access to the intelligence to meet their adaptiveness in 
light of emerging threats?
    They're not going to do the same thing that passengers took 
them down for before. Do you have access to that intelligence? 
Or do you have to depend upon some other agency? And if so, how 
do they relay to you what the emerging intelligence reveals?
    Mr. Neffenger. Thank you for that question. And, first, 
just to be clear, the underwear bomber and the Richard Reid 
shoe bomber, those were not screened by TSA because they came 
from overseas in.
    Ms. Norton. Yeah. I understand that.
    Mr. Neffenger. So those--and it's one of the reasons that 
we were--we became concerned about the non-metallic threat. I 
do have access to intelligence. And as I noted earlier, every 
morning I get an intelligence briefing. And it's a compilation 
of intelligence from across the intelligence community. I meet 
regularly with other members of the community. And we have 
people embedded in all of the major intelligence components, so 
the National Counterterrorism Center, the National Targeting 
Center, the CIA, NSA.
    Ms. Norton. Do you screen yourselves instead of waiting for 
an outside agency to do it?
    Mr. Neffenger. We do. We do the recurrent vetting of the 
trusted populations, as well as the current vetting of people 
in the secure flight--that enter into secure flight, put a 
passenger reservation in, and then continuous recurrent vetting 
of individuals who are in the trusted traveler programs.
    Ms. Norton. No, I understand that your screeners often pass 
their own tests when you do your own internal vetting. That is 
why I ask this question about trying to understand, 
particularly people who have to stand in one place for several 
hours, doing the same thing, seeing the same thing. Don't we 
need to know more about how the human brain operates with 
respect to that kind of work, so that we can better equip 
screeners to do this, frankly, very boring job?
    Mr. Neffenger. I think that's a key point, and one of the 
things that we looked at, as we looked at the--at what are the 
repeated causes of these things that we keep seeing over and 
over again?
    Ms. Norton. So who was looking at that?
    Mr. Neffenger. Well, we initially looked at it through an 
assigned team. The Secretary referred to it as the tiger team, 
but I've inherited it. It's really the team--the root cause 
analysis team. And the next thing you have to do then is say, 
okay, now that I've found these root causes, can we correct 
them ourselves, or do we need help in doing so?
    Ms. Norton. I'm just going to ask you, finally--I know my 
time is up--if you would consider getting an outside study from 
people equipped to understand the human brain and how it 
operates after repetitiveness of this kind, so that we can get 
ahold of this?
    Mr. Neffenger. Yeah, I think it's important to look at 
human factors. You're absolutely right. So I would consider it.
    Ms. Norton. Thank you.
    Chairman Chaffetz. I now recognize the gentleman from 
Georgia, Mr. Carter, for 5 minutes.
    Mr. Carter. Thank you, Mr. Chairman. And thank all of you 
for being here today. We appreciate your presence. Mr. Roth, I 
understand that some of this information may be classified. 
And, certainly, if I overstep my bounds, I'm sure you'll let me 
know. But I would appreciate your cooperation. I would like to 
ask you what I would consider a little bit more detailed 
question. And that is, first of all, it's been reported that 
the undercover investigators were, what areas were they 
specifically looking at? Was it the typical area that a 
passenger goes through?
    Mr. Roth. For this round of covert testing, what we did was 
simply act like an ordinary passenger and try to get prohibited 
items through the checkpoint. So, that would be either the AIT 
machine, the Advanced Imaging Technology machine, or, for 
example, if they were part of managed inclusion, through no 
sort of action on their own but was simply sent to a 
magnetometer, going through that way as well. So they just 
acted like normal passengers, except they had things concealed 
on them.
    Mr. Carter. So this particular operation did not really 
look at where the employees are going or anything outside, it 
was just typical passengers?
    Mr. Roth. Correct. We did some covert testing 2 years ago 
on that very issue, that is, trying to get into the very secure 
areas, you know, sort of unguarded access to aircraft or jet 
baggage and that kind of thing. And the results were 
disappointing.
    Mr. Carter. You mentioned the imaging machines. Were there 
actually guns or simulated bombs that you were able to get 
through? Did they go through the imaging machine as well?
    Mr. Roth. I can't talk about the specifics unfortunately. 
But we did test the imaging machine, and we did test it with 
significant numbers of prohibited items. And, again, the 
results were disappointing.
    Mr. Carter. As well as the X ray machines?
    Mr. Roth. Correct.
    Mr. Carter. Okay. Mr. Roth, earlier this year, you 
testified before the Senate Committee on Homeland Security. And 
during that time, you said that your office, the testing found 
layers of security simply missing. And then you seemed to 
indicate that those results were expected. Is that true?
    Mr. Roth. One of the things that--yes, the results were 
expected. The degree of the results, I think, were a bit 
surprising to us. But keep in mind that we've done covert 
testing over the years with very similar results to the ones 
that we did this year. And I would add that once we did the 
results this year, we discovered that TSA itself had done 
covert testing with very similar results. So everything had 
been consistently poor for a number of years, which, of course, 
was both exasperating and troubling to us.
    Mr. Carter. Mr. Neffenger, given these results and these 
findings, what are your plans? What do you plan to do to 
address what has been called missing layers of security?
    Mr. Neffenger. First, it's a full-system review. It started 
with understanding the nature of the failures that existed, to 
look at how those were similar to other discoveries in past 
years, and as I had mentioned before, to really figure out 
what's the systemic reason for this? Because if you have, if 
you assume you have a generally talented workforce that really 
wants to do a good job, but they're failing, then it tells me 
that there's something else going on. And I do think we have a 
generally talented workforce that wants to do a good job, that 
wants to come to work to protect this Nation on a daily basis.
    So there must be a reason or something for repeated 
failures of the same type system-wide. First of all, it's 
recognizing that it's a system that operates, and not just a 
point failure at a given airport, or a given number of 
airports. Second, it's looking back over the way in which 
your--what is your leadership of the organization? What are the 
environmental influences? And so on and so forth. And then 
beginning to reevaluate from core essential mission facts, you 
know, what is it we are supposed to do? Do we understand our 
mission the way we should? So we're in the process of doing 
that right now.
    Mr. Carter. And all that is good and fine. But what about 
specifics? Can you tell me something specifically, we changed 
this or we changed that?
    Mr. Neffenger. Yes, sir. So proper use of the technology. 
So we dramatically changed the way people use that technology. 
Because as it turns out, we hadn't taught them how important it 
was to use it properly. And without getting into classified 
details, and I would be happy to provide those in a closed 
session, I could tell you specifically why some of those 
failures existed. So we fixed that. We actually told them how 
the equipment works. That was something we had never done 
before. We streamlined the number of procedures that we 
expected them to memorize. I mentioned there were 3,100 
separate tasks, and 88 different forms of pat-downs. So that 
was just, it's impossible. There's no one who can do that. So 
we've now streamlined that down to about a 25-page quick-
response guide which outlines in very specific detail with 
pictures, here's exactly what you do. And we've significantly 
improved our ability. So we trained specifically to do things 
very differently at the checkpoint.
    Mr. Carter. My time has expired. Mr. Chairman, I yield 
back.
    Mr. Palmer. [presiding.] The chair recognizes Mr. 
Cartwright for 5 minutes.
    Mr. Cartwright. Thank you, Mr. Chairman. Mr. Chairman, TSA 
is a frontline counterterrorism organization. And its 
transportation security officers, those TSOs we've been talking 
about, they have to get it right every time. Mr. Neffenger, 
thank you for being here. I want to ask you, do TSOs receive 
annual performance review testing?
    Mr. Neffenger. They do.
    Mr. Cartwright. Do the TSOs typically know when they're 
going to be tested for their annual employee performance 
reviews?
    Mr. Neffenger. Typically, yes.
    Mr. Cartwright. Okay. And on average, how do they perform 
during these annual performance review tests?
    Mr. Neffenger. On average, they perform well.
    Mr. Cartwright. But, yet, what we find out is that the 
covert tests conducted by the Inspector General, GAO, and your 
own internal teams, revealed significant problems in screener's 
performance. It seems as though TSOs tend to bring their A game 
when they know the test is coming, but not so much at other 
times. Inspector General Roth, nice to have you back in our 
committee room. Would you say covert tests of screener skills 
and knowledge bear out this concern I'm talking about?
    Mr. Roth. Yes.
    Mr. Cartwright. Now, according to TSA documents, of the 38 
metrics used to assess the performance of field leadership at 
airport checkpoints, the majority have been focused on wait 
times for passengers, rather than safety concerns. And I want 
to ask all of our witnesses, including you, Director Grover, 
would you agree that if TSA employees were told they're being 
judged, at least in part, on how expeditiously they move 
passengers through the system, this may signal to screeners 
that speed takes priority over other considerations?
    Mr. Neffenger. Is that question for me? You're absolutely 
right. I couldn't agree with you more. That's exactly what I 
found in the course of our analysis of the issue.
    Mr. Cartwright. And I note that under TSA's new plan, it 
appears to put the focus back on security. Am I correct in 
that?
    Mr. Neffenger. Yes, sir. You're correct.
    Mr. Cartwright. In responding to the new ``safety before 
speed'' goals, one TSA employee was reported to be glad that, 
``The agency finally is going back to basics, emphasizing 
security over customer service and wait times.'' But another 
employee doubted the new plans will be implemented. And he or 
she thought that management will still be very focused on wait 
times and throughput. And I want to ask you, Mr. Neffenger, how 
will you convince frontline employees that the metric on which 
they will be evaluated will be security?
    Mr. Neffenger. Well, I suppose, I mean, you have to get a 
little trust up front and you teach them over time. But I will 
assure you that one of the first things I did was to eliminate 
wait time as a primary measurement. Now, it's not that wait 
time isn't important. There's some issues associated with 
people packing up outside the sterile area. But effectiveness 
and security is the primary measure. And what I've said to, not 
just my leadership team, but to everybody in the organization, 
and I've done it through direct contact, through video 
messages, through weekly messages from me, I've said, Your 
number one job, if you're a screener, is to screen effectively.
    I will let management--it's management's responsibility to 
work with the airports and the airlines and others to do queue 
management. But we were putting that burden on the backs of the 
screeners. And it's no surprise to me that if you hold them 
accountable for moving people more effectively, more 
efficiently through the line, that they're going to do just 
that. You get what you measure. And you get what you emphasize. 
It's also no surprise that they do really well on the 
performance test and do poorly in the other way, because that's 
about keeping your job. So it tells me they're capable of doing 
their job well. We just have to give them that--we have to back 
them in that score 100 percent.
    Mr. Cartwright. All right. Fine. Let me ask you this, 
Administrator Neffenger: When will performance assessments 
using the new metrics begin to be used? And will any aspects of 
the performance evaluation process change to track performance 
over time rather than performance on a single test? In other 
words, how are you going to ensure TSOs are at the top of their 
game every day, not just when their job performance reviews are 
happening?
    Mr. Neffenger. Well, those performance metrics have already 
changed. And they've been explained and announced to the 
workforce.
    Mr. Cartwright. All right. Now, finally, let me ask you how 
will you balance increased wait times with the focus on 
security, and ensure that security considerations don't give 
way when balanced against increased wait times, particularly 
during busy travel periods like the upcoming holiday season?
    Mr. Neffenger. Well, we are seeing an increase in wait 
times, not, not--and it's SPOT-significant. But, two things: 
One, I really want to grow this trusted traveler population. 
And I want to do it in the smart way, which is a true vetted 
population. And so we're working very hard with the--both with 
the current vendor, who you may have seen some of the 
opportunities in the airports, and we're looking to expand it 
considerably through a request for a proposal that's out. Also 
working with the industry itself to look for opportunities to 
market it more effectively. And we are seeing a significant 
increase in enrollments. That's one way of doing it. The second 
is to provide surge staffing to those airports that we know are 
going to be under the greatest pressure during the upcoming 
travel season. But at the same time, not to put any of that 
burden on the backs of the screeners, but to move that into the 
management team where it belongs.
    Mr. Cartwright. All right. I'm out of time. And I yield 
back, Chairman Palmer.
    Mr. Palmer. Thank you. The gentleman's time has expired. 
The chair recognizes Mr. Hice from Georgia.
    Mr. Hice. Thank you, Mr. Chairman. And thank each of you 
for being here with us here today. In my short time in 
Congress, I have already seen and heard far too many reports, 
be it from the Office of the Inspector General or GAO, 
wherever, dealing and detailing TSA's prohibitively expensive 
technology, either not working to properly screen passengers, 
or the TSA agents not properly reading the technology one way 
or the other in the various red tests, red team tests that have 
taken place.
    As you well know, Hartsfield-Jackson Atlanta International 
Airport, hundreds of thousands of people every day flying out 
of there, one of, if not the most busiest airport in the world. 
I fly out of there myself almost every week. And I could not 
agree any more with my colleagues here today that the 
recommendations that have come from OIG and GAO, it's just 
vitally critical for these to be implemented.
    And you, Mr. Neffenger, just being in this position 4 
months, hats off to you. I thank you for your comments here 
today and your willingness to admit the problems that you're 
facing, and the willingness to attack those head on.
    As some of the results have come back from some of the 
various tests, a word was used earlier describing those results 
as ``pathetic.'' And you, yourself, I think, are fully aware of 
that. Another word that hit me earlier is the word ``culture'' 
that's been within TSA. And I believe Inspector Roth said that 
culture is the most important issue that you saw that needs to 
change immediately. So that being said, what have you done to 
this point to transform the culture at TSA in such a way that 
the vulnerabilities are adequately addressed?
    Mr. Neffenger. Mr. Hice, thank you for that question. And 
that is a key point. You know, as I looked at TSA, I tried to 
understand, so I come from an agency with 225 years of culture, 
the United States Coast Guard. And that's a lot of time to 
build an identity for an organization in the sense of who you 
are. TSA is still largely an amalgam of the cultures of the 
places that everybody came from. It really hasn't had time to 
grow a leadership core from within. And so you have this 
combination of people.
    So what do you do to jump start the culture in an 
organization? I think there's a couple key things you can do, 
and it comes from both the top and the bottom. Let me start 
with the bottom. First, I think one of the greatest challenges 
TSA has amongst its workforce is that we train on the job 
across 75 different airports. So if you hire into TSA right 
now, if you hire into Atlanta, you actually just join the 
Atlanta-Hartsfield workforce. It's not clear to me that there's 
a--that there's a real engagement with the broader sense of who 
you're part of.
    So one of the things I've proposed and I've asked for in 
the FY '16 budget, is to begin almost like a boot camp training 
at the Federal Law Enforcement Training Center in Glynco, 
Georgia, so that I can conduct all new hire training there. 
That's one way to begin to engage from the bottom up this 
connection to a larger organization and a sense of culture, and 
to begin to inculturate people.
    At the top level, it takes somebody at the very top of the 
organization, and that's me right now, saying this is 
important--first of all, saying the word ``culture'' out loud, 
and identifying where the culture isn't connected, and then 
identifying what you expect that culture to be. So I'm about to 
issue my administrator's intent in which I, very clearly, in a 
few succinct pages, outline what the culture of our 
organization is, and what I intend it to be, and how we intend 
to work towards that.
    And then you have to then begin working on that on a daily 
basis. So there's a series of efforts that I have planned over 
the coming months to begin to talk and train in the culture 
that you expect.
    I think that's the best way to begin to jump start it. And 
then it has to take root and grow over time. But it takes 
continuous attention. This is one of these things that will 
fade away if you don't pay attention to it.
    Mr. Hice. Well, and it is a huge task. And in the middle of 
that, you have both the safety issue and the efficiency issue 
trying to get passengers through. You mentioned some metrics a 
while ago that you are currently already implementing. I want 
to know from Mr. Roth and Ms. Grover, do you believe those 
metrics are adequate to both provide safety, security that we 
need, and also efficiency?
    Mr. Roth. I agree with the Administrator that you get what 
you measure. So, certainly, if you measure the right things, 
you're going to get the right things. As part of our audit 
process, what we'll do is 90 days after the completion of our 
report, we're going to look back on it in sort of a rigorous, 
systematic way to determine whether or not these metrics are 
going to work. Until then, we're going to be skeptical about it 
because that's our job is to be skeptical. So we will keep the 
Congress informed as we go forward.
    Ms. Grover. Time will tell. Our biggest task for TSA at the 
moment would be to make sure they put in place a systematic, 
coherent approach to measuring the outcomes that they want to 
achieve, and then monitoring them and following up on them with 
the workforce. Because that's the only way to make sure that 
they get improved, consistent effectiveness.
    Mr. Hice. Again, I thank each of you for your 
accountability and working, partnering together. Mr. Chairman, 
thank you for the time. I yield back.
    Mr. Palmer. The gentleman's time has expired. The chair now 
recognizes Mr. DeSaulnier.
    Mr. DeSaulnier. Thank you, Mr. Chairman. Mr. Neffenger, let 
me just say how encouraging it is to hear your forthrightness, 
and also your comments about going to root cause and human 
factors. So when we look at human factors, I know when I talk 
to people in my district in the national laboratories, or, I 
should say, in the edges, who do studies on human factors in 
different environments and all they're learning from 
neuroscience, one of the things that comes up is making sure 
that those individuals can focus on what their jobs are.
    And that also reinforces the things you say about culture, 
that you're trying to eliminate things that are distracting 
them. So, for individuals who aren't getting paid a lot of 
money but are dealing in a stressful retail environment where 
the customers aren't always the great--always in the best mood, 
I wanted to ask you questions about your relationship with the 
airline industry.
    So it strikes me that, having been a frequent traveler for 
many years, going through the experience, you don't go to TSA 
to find out what's the best way for you as a customer to go 
through wherever you're going, whether it's the general 
customers going through, or pre-check. But the more we 
continually reinforce this is what you should expect, this is 
what you need to do; and on the back end, your conversations 
with the airline industry, and specifically, for charges for 
checked baggage, which you have mentioned, stated that this 
trend, and more checked baggages creates a stressed screening 
environment at airport checkpoints.
    So both of those things. How do you deal with the airlines 
so that when some of the airlines start charging for check 
baggage, and we have more and more people trying to carry on 
more, it seems to--just as an observer--create more stress for 
the screeners. And then, secondarily, how do you help with the 
airline so that when we're going to our apps to understand for 
people who don't fly frequently, they are helping you reinforce 
how to get customers and educate customers how they can best be 
prepared to get through the line?
    Mr. Neffenger. Thank you for that question. And I think 
that--so I'm still relatively new in the game, but I've been--
I've met--I've spent a lot of time over the past 4 months 
meeting with both industry representatives, the association 
that represent them, as well as the individual CEOs of each of 
the major U.S. airlines. I've been very encouraged with their 
openness and their response. They recognize some of these same 
challenges. I think that there's a great deal of work we can do 
to tie ourselves more closely together. There's nobody with a 
higher vested interest in security of the system than the 
people who are flying in the system. And I think that 
recognizing that, that gives you a lot of grounds for, we have 
the same objective in mind, even if we approach it from 
different motivations and different requirements.
    So I'm encouraged that a number of airlines and the travel 
associations that support them have begun to do more to 
advertise the trusted traveler programs like global entry and 
pre-check. I think there's a lot we can do to simplify the 
application procedures and to make them more common across the 
various programs that the Government offers. I think that you 
can never market that enough.
    But I do believe that it really comes down to understanding 
that we're all in the same system together. We have different 
roles to play, but we can play those roles in a complementary 
fashion. The airlines have been working very hard to enforce 
the 1+1 rule, meaning the one carry-on bag and one handbag or 
one briefcase. They're challenged as well.
    You know, it's not my business to address their business 
model, but I can tell you it's just a fact that a lot more 
stuff is arriving. It's packed more--full of more things. 
People have electronics in there. All of that poses a challenge 
for the screeners to deal with. And they have to be very 
attentive to it.
    Mr. DeSaulnier. But you work with the airline industry, so 
that you knew these changes were coming, or your predecessor 
knew, that it had the potential to put more pressure on the 
screeners when they were going to start charging for checked 
baggage?
    Mr. Neffenger. I mean, I think that would have been the 
expectation.
    Mr. DeSaulnier. Do we have a mechanism to do that going 
forward?
    Mr. Neffenger. Absolutely. I've asked the--and the airlines 
have promised to work closely together. I think both sides have 
to be aware of the impact of the decisions they make. And I'm 
interested in the decisions and the business models of the 
airline industry and how it affects our business, because we 
support that business.
    Mr. DeSaulnier. And also they may be transferring costs 
that you might pick up that they would normally expect to be 
part of their costs?
    Mr. Neffenger. At a minimum, to let them know what the 
consequence of that decision will be, that it may, indeed, lead 
to slower throughput at checkpoints, because we have to screen 
and clear these bags.
    Mr. DeSaulnier. But, in this instance, would there be some 
kind of analysis that they are making more money by checking--
charging for checked bags, but it's costing us more money, 
either because it's putting more stress on the system, you're 
adding more people, they're working overtime? And do you have a 
relationship with the revenue stream that's going in there? 
Should they compensate you for that if there's a cost benefit 
that shows that there is?
    Mr. Neffenger. Well, I have not looked at the specific cost 
analysis. So I would have to take that back for action. But I 
think that, certainly, I would want to know what the impact is 
on me; if it requires me to have additional resources, then I 
need to be aware of that.
    Mr. DeSaulnier. Thank you, Mr. Neffenger. Thank you, Mr. 
Chairman.
    Mr. Palmer. The chair recognizes Mr. Russell from Oklahoma.
    Mr. Russell. Thank you, Mr. Chairman. And thank you all for 
being here today and your dedication for trying to help secure 
our republic. And, Administrator Neffenger, thank you for your 
long and dedicated service to our republic. With regard to some 
of the issues on the screening partnership program, would you 
say that the partnerships have been better or worse performers 
than TSA? And what concerns do you have about that, if any?
    Mr. Neffenger. In my initial look at the difference, or the 
potential differences between private sector screeners and the 
public, we haven't seen any significant differences in 
performance, assuming that they're trained appropriately and 
the like. If I have any concerns at all, it's that we have a 
clear set of standards and expectations, and that those are 
consistently maintained across that program. But, again, I 
don't see any evidence that there's any particular performance 
differences between the two.
    Mr. Russell. Thank you. With regard to the turnover, what 
percentage of new hires would you say turn over within 1 year, 
or 2 years, just a ballpark?
    Mr. Neffenger. You know, I just saw these numbers. I'll 
have to get you the exact number. But it's a fairly high 
turnover rate. Well, it depends. Part-time is different from 
full-time. So in the full-time workforce, it's about 10 percent 
I think is the number. And in the part-time workforce, it's 
been as high as about 25 percent.
    Mr. Russell. And you had mentioned some of the reasons 
before. But, obviously, that's got to be a drain on your 
experienced, long-time personnel because they're constantly 
having to break in new employees, and you have the expense of 
training them. So these are really dollars that are lost. How 
will you mitigate that in the future?
    Mr. Neffenger. I think some of it goes back to that 
overarching discussion we had about connection to mission, 
connection to agency. As I think about what is it that would 
make somebody decide that this is not for them, aside from the 
odd individual who just says that's just not what I thought I 
was signing up for. It's typically, did the thing I thought I 
was going to do, is that what the agency actually expects me to 
do? So am I connected to the mission? Am I connected to my 
agency? And do I see a future in the agency? Are there 
opportunities for training? Further advancement? And so forth.
    I think all of those are components of turnover, I think, 
some of which can be addressed, are beginning to be addressed 
by establishment of a common training program, and an engaged 
sense of belonging to something larger than you. I think it 
continues with a clearly-defined sense of progression in the 
organization, an understanding of what your opportunities are, 
and incentivizing performance, understanding if I perform well, 
I'll get rewarded for it, and a feeling of engagement with my 
leadership.
    Mr. Russell. Thank you. What concerns do you have with 
cargo screening?
    Mr. Neffenger. Well, cargo, as you know, has been a concern 
for some time. There have been a number of procedures put in 
place for that. I think that the question is a recognition of 
the fact that this is a much larger system than just the 
checkpoints. Even assuming you get the checkpoint 100 percent 
right, there are many other potential vulnerabilities in the 
aviation environment, cargo being one of them.
    We have a very robust set of requirements for cargo on 
domestic aircraft, as well as cargo that is coming inbound to 
the U.S. on foreign and domestic carriers coming from outside 
the U.S. And that reaches all the way back to the individuals 
who are actually packing the cargo container for shipment. It 
is an ongoing challenge. It's an ongoing threat. And it's one 
that you can't take your eyes off at any point.
    Mr. Russell. I guess on the TSA pre-program, a lot of 
issues have been addressed with that. I mean, I understand the 
benefits of certainly having low-risk travelers set aside for 
expedited screening. And you made it a point to, in your 
testimony here today, to try to stop the managed inclusion 
where people are benefiting from the program, but really have 
no vetting whatsoever. Based upon the needs and the shortfalls 
of the pre-program, how much of that was from managed inclusion 
by vetted passengers?
    Mr. Neffenger. Are you speaking with respect to the covert 
testing failures?
    Mr. Russell. Yes.
    Mr. Neffenger. Well, I think that it is the case that some 
of the--without getting into details--that, as Inspector 
General Roth noted, some of the people who were coming through 
the system were diverted into it. And that may have contributed 
to some of the failures that we saw.
    I felt that the managed inclusion, as I said before, 
injected unacceptable risk into the system. I didn't know 
anything about these individuals. And I thought that they were 
best put back into standard screening until such time that they 
presented themselves in a direct way for vetting to come into 
the program.
    Mr. Russell. Thank you, Mr. Chairman, for your indulgence.
    Mr. Palmer. The chair recognizes the gentlelady from New 
Mexico, Ms. Lujan Grisham.
    Ms. Lujan Grisham. Thank you, Mr. Chairman. And thank you 
all very much for your testimony today. Mr. Neffenger, I'm a 
big supporter and proponent of evaluative testing and review of 
large employee organizations, because it can be very difficult, 
particularly when it's so broad-based, and it's a national 
organization, to really get at the heart of what is occurring 
at a day-to-day basis; and in my own State, created undercover 
or anonymous care evaluations of long-term care facilities. I 
think today it's still the only State-authorized, or I think 
the authority exists, but we have a statute that re-confirms 
that not only does the authority exist, but it should be 
encouraged, and you should undertake these anonymous care 
evaluations.
    And I appreciate very much that your leadership recognized 
that this might be a way to either confirm the data that you 
have, which, at the time, suggested that things were operating 
fairly well, and you might have some complaints, or an anomaly, 
or you would have the opposite, right, which is exactly what 
occurred here that you've identified that you've got 
significant issues.
    And in the course of your responses to questions, and 
certainly in your testimony, you've--and I appreciate that--
have accepted that there's a culture problem in the 
organization that needs to be addressed. And you've got a 10-
point plan.
    And so I'm really interested in, even implementing that 
plan, it is very difficult--it's challenging to create, in 
large organizations, I think, a kind of top-to-bottom, bottom-
to-top culture shift, because I think too often, people believe 
that it's a temporary investment, and then it's easier to kind 
of go back to the way that it was, particularly if you think 
random efforts at looking at one region, or one area, or one 
airport, or one screening system versus another. It really 
depends on the leadership in that particular organization.
    What have you learned from this experience that, A, we can 
help you with in terms of really having a sustainable culture 
change shift with the leadership and rank and file employees? 
What can we take from that and use it for other Government 
entities that we have the same issues, Secret Service, the 
Veterans Administration, several others in Federal Government 
that I think could really use this kind of approach?
    Mr. Neffenger. Well, thank you. There's a lot in that 
question, but I think it's really important, and you've hit on 
a number of the key concerns and thoughts that I've had with 
respect to this. You're absolutely right, that it's challenging 
to do cultural change. But, you know, but we have one great 
benefit, we have a really, really important mission, and it's a 
very defined and very specific mission. And so, that's a huge 
rallying point to begin cultural change, unlike an organization 
that might have, you know, a couple hundred different things to 
do.
    So I like that. And it's a mission that people care 
passionately about and you can tie them to it. And I never 
forget that everybody in this workforce raised their hand and 
took an oath of office, and you can activate that. So that's 
one great advantage that you have, but it's not enough. And 
it's not enough for me to say I want cultural change, but no 
one individual makes it happen. But it is important for me to 
say it, because it has to start at the very top of the 
organization. The organization that raised their hand and took 
the oath has to believe that the person leading that 
organization took the same oath and cares about it. And so I 
have yet to say that out loud.
    And then you have to build some institutional structures 
that actually support it. I mentioned a couple today. I think 
it's critical that I begin to do new hire training in a 
consistent, standardized, you know, singular way. And I think 
that that will do great value in building culture over time. 
It's not immediate, but as you do that----
    Ms. Lujan Grisham. I agree with that, and I hope you're 
going to, and I think that's a great idea, but that you--the 
accountability balance with incentivizing and creating long-
term shifts, having an immediate shift that people believe is 
really taking place, is the harder part, I think, and I'm 
really interested to hear more about that.
    Mr. Neffenger. Well, the other thing I did is, and 
apparently for the first time ever, I brought the entire, what 
I termed the leadership of TSA together, that is, both the 
senior leaders at the headquarters office here in the D.C. 
area, as well as all of the Federal security directors, the 
regional directors, and then my--my regional directors, who are 
posted in overseas locations together, that was about 175 
people.
    So first time in the history of TSA we've done that. I 
spent 2 days with them, and it was 2 days of connection to 
culture. And during that 2 days, we talked about how we 
collectively define the culture of the organization. So I can 
say----
    Ms. Lujan Grisham. I'm out of time. I applaud your efforts. 
And I would, with the chair's discretion, just encourage you 
balance accountability with incentivizing and creating a clear 
operating system, because I don't believe it's sustainable 
unless you do. Thank you very much for your leadership.
    Thank you, Mr. Chairman.
    Mr. Mica. [Presiding.] I thank the gentlelady. I recognize 
Mr. Palmer.
    Mr. Palmer. Thank you, Mr. Chairman.
    We've had a lot of discussion about equipment technology, 
and we've gotten into the personnel issue as well. The 
Inspector General has stated that the TSA's problems come, I 
think, largely from a lack of training. Mr. Roth, is that 
correct?
    Mr. Roth. That is certainly one aspect of it.
    Mr. Palmer. Mr. Neffenger, how do you plan to address the 
training issues?
    Mr. Neffenger. Well, we did immediate address of the 
current results, and we--we did what were called mission 
essentials training, it was an 8-hour block of training across 
the entire workforce. And it started with the frontline 
workforce, we did this over the course of August and September. 
We trained every single screener, and now we're in the process 
of doing the same for the leadership of the organization. And 
that was designed specifically to talk about what were the 
nature of the failures, and then to talk about systemically why 
those failures existed and how they existed across the 
organization.
    Now we have to go back and measure the effectiveness of 
that training, and we're in the process of doing that now, and 
we'll do that going forward. That is a program that we're 
putting into place for--on a routine basis now. We are going to 
do quarterly mission essentials training. And then we're 
looking at across the organization at all levels, what are the 
progressive levels of developmental training and repeated 
training that has to be done to ensure that you--that you 
identify problems before they become systemic, before you get 
into massive failures like we saw earlier. I think that time 
will tell as to how effective it is, but I'm encouraged that 
some initial anecdotal results show that significantly improved 
performance in those areas where we recently tested.
    Mr. Palmer. Now, are you referencing the use of the Federal 
Law Enforcement Training Center? Is this your front--training 
for frontline people?
    Mr. Neffenger. It's one--it's one aspect of that training 
that--we used it to--to bring all of our trainers in during the 
month of July to train them and then push them out to on-the-
job training for our workforce. The--what I'd like to do at the 
Federal Law Enforcement Training Center is really move our new 
hire academy full-time to there--beginning in 2016, and then 
develop additional training opportunities and developmental 
training throughout someone's career in the TSA.
    Mr. Palmer. Mr. Roth and Ms. Grover, you both can respond 
to this, but do you believe this basic training will help? Is 
it going to get us where we need to be?
    Mr. Roth. It absolutely will help, both in the sense of 
mission and community that Administrator Neffenger referenced, 
but also some of the very basics that we found weren't being 
followed with regard to checkpoint operations. So I'm a firm 
believer in training, and that is one of our recommendations, 
so we're gratified that Administrator Neffenger is following 
through on that.
    Ms. Grover. I agree it is necessary and critical to both 
the development of an appropriate culture and enhancing 
knowledge to support security effectiveness, but it is not 
sufficient. Administrator Neffenger mentioned the plan to 
follow up to make sure the training itself was getting the 
desired results, and that is critical.
    Mr. Palmer. Mr. Russell of Oklahoma asked a question about 
cargo security. I want to ask about checked bags. Mr. 
Neffenger, are you aware of the leak that occurred earlier this 
year where all of the Travel Century luggage keys, which TSA 
uses, have been released to the public?
    Mr. Neffenger. I'm aware. I think you're referring to the 
photograph of a key that was published in a major newspaper.
    Mr. Palmer. Right. That apparently they can reproduce those 
keys. Are you aware of that?
    Mr. Neffenger. I am. Yes, sir.
    Mr. Palmer. Can you provide the committee with any 
Memorandum of Understanding between your agency and the Travel 
Century regarding the master key program? Would you--could you 
do that for us?
    Mr. Neffenger. I'll see if we have one, yes, sir.
    Mr. Palmer. All right. And then my last question will be, 
how do you plan, or will you be able to address this issue of 
baggage locks if these Travel Century keys have been 
compromised?
    Mr. Neffenger. Well, I think that--the first thing I would 
say is that it's clearly a compromise for a potential--for 
locking that bag outside the aviation environment. Those bags 
are still secure to go through the system, because they go 
through screening into the aviation system, so I don't see it 
as a threat to the aviation security system, but it's clearly a 
potential theft issue outside of the aviation environment. I 
think I need to see what the potential solution is from the 
Travel Century folks, and then look to see what we can 
institute in the future, but clearly we have to address that as 
a problem.
    Mr. Palmer. And that's the context of my question. You have 
travelers who think--who are not using locks, because you use 
bolt cutters, and they want to know that their luggage is 
secure.
    I thank you, Mr. Chairman. I yield.
    Mr. Mica. I thank the gentleman.
    Mr. Grothman, the gentleman from Wisconsin.
    Mr. Grothman. Okay. Well, I'd like to thank you for coming 
over here. I know it's a tough job. You know, you're--it's got 
to be a difficult thing to work. I assume you can work there 
for 30 years and never catch somebody who has ill intent. So 
you must sometimes wonder what you're doing is worthwhile, and 
you're also dealing with a public that, you know, usually does 
not consider this a wonderful thing, so you're dealing with 
people who aren't particularly happy to have you there.
    First question I have, in general, say, in the last 5 
years, have you folks caught anybody who you believe, not 
somebody who accidentally was slipping in, you know, a 
fingernail clipper or something, but somebody who really had 
bad intent in the last 6 or 7 years that you feel----
    Mr. Neffenger. Within the entire system, I would say yes. 
Remember that there's a--there's a security environment in 
which you enter when you--when you first put your name into a 
reservation system. So I would say we have repeatedly 
identified people with connections to known or suspected 
terrorists over the years.
    Mr. Grothman. I mean, people who you believe at the 
airport, when I go through these things, if you guys didn't 
stop them, they were going to try to do a bad thing; not 
somebody who was one of thousands of people on a terrorist 
watchlist. I mean, somebody who you believed that if you were 
not there, they would have done bad things.
    Mr. Neffenger. I believe we've caught--we had a few 
instances that I've been--that I've been aware of. I hope that 
the vast majority are deterred from trying in the first place.
    Mr. Grothman. Right, right. That's the goal, right. If you 
could maybe forward to the committee later the examples where 
you really feel----
    Mr. Neffenger. Yes, sir.
    Mr. Grothman. --that you caught somebody who would have 
done a horrible thing if you hadn't caught them.
    Second question, we had a hearing a while ago on this 
stuff. At least what I took out of it is that, you know, maybe 
dogs would be a better way to go about this, and there were 
slip-ups. Have you done any work with dogs, or used them as a 
trial?
    Mr. Neffenger. We do. Actually we have quite a few K-9 
teams deployed throughout the aviation system. I noted in an 
earlier question that--I'm in the process of moving some of 
those teams from what I consider to be smaller, lower risk 
airports to the large airports. I don't really--I think the 
exact number is somewhere around 112 teams currently. We've got 
another dozen or so teams coming on this coming year.
    I think dogs are a very important additional element of 
security in the system. They provide a lot of capability, both 
for cargo screening as well as for passenger screening, so I'm 
a big proponent of the use of canine teams.
    Mr. Grothman. Could you see the day when we use more dogs 
and less people?
    Mr. Neffenger. I don't know that dogs will ever replace the 
people component.
    Mr. Grothman. Not entirely, but I mean----
    Mr. Neffenger. But I think that--I think I can see a day 
for using more dogs, and we're doing that as we go forward.
    Mr. Grothman. Would they ever--would they replace some 
people? Do you see the day where, you know, rather than I go 
through there and I see eight uniformed people, I see two 
uniformed people and a dog? Do you see that day?
    Mr. Neffenger. Well, I think there's a potential, but 
that--that really speaks to the larger question of how that 
checkpoint evolves over time.
    What I do see is a day when the checkpoint looks very 
different from what it does today. We're still largely dealing 
with, with the exception of the AIT, we're still largely 
dealing with the same kind of checkpoint we've had for the past 
decade or more, and I think we're on the cusp of a very 
different-looking checkpoint experience in the next 5 years.
    Mr. Grothman. Okay. A while back, I know a guy who worked 
for you, and he felt it was a very top heavy organization, or 
at least at the airport this guy worked at. Are you doing 
things over time to reduce the number of administrative staff 
as opposed to people doing the work?
    Mr. Neffenger. We have. We've come down about a total of 
6,000 people in TSA since the spring of 2013, so in the past 2 
years, almost--now 3 years almost, we've reduced the workforce 
by about 13 percent. I think we'll continue do so. I've asked 
to hold steady for the coming year as we look at the impact of 
the elimination of managed inclusion, and I look to correct 
what I see to be systemic issues in the organization, and then 
we'll revisit the staffing standards following--following this 
year, but I do see that there are more efficiencies to be 
gained always in an organization. I think you have to look at 
that continuously.
    Mr. Grothman. Okay. What do you pay your people starting? I 
mean, one of the guys that I see, or gals I see, what is the 
compensation they get?
    Mr. Neffenger. It varies by location, because there's 
locality pay associated with it, but it's--it's roughly 
equivalent to--to the incoming level for a----
    Mr. Grothman. What is--how much is it?
    Mr. Neffenger. You know, I think it runs somewhere around 
28- to $30,000, but I'll get you the exact figure.
    Mr. Grothman. Do you have a hard time finding people or 
not?
    Mr. Neffenger. We're challenged like any organization to 
find a workforce. We've met our recruiting goals every year, 
but the turnover's higher than I'd like to see it be.
    Mr. Grothman. Is there any reason why somebody 60 to 65 
couldn't do that job, or do you discriminate against them or 
you'll get----
    Mr. Neffenger. Oh, not at all. We have quite a few people 
who are retirees that are working in the screener workforce.
    Mr. Grothman. I guess I'm out of time. We'll get one more 
question.
    Sure. I ran into a guy this weekend who was on your 
whatever list, the trouble list, okay, and he'd been on it for 
quite a long period of time. He wasn't as mad about it as I 
would be. I mean, one time he walked through the thing, and 
apparently the people all ducked down and they called the 
police on him and, you know, people came in with their guns 
drawn. He was somebody if you just looked at the guy, you'd 
think, what? I mean, this is some guy who lives in a little 
town in Wisconsin. It was like, really?
    How quickly does it take people to get off this list? I 
mean, when you guys make a mistake like this, how quickly 
should it be?
    Mr. Neffenger. Well, there's--there's a redress process 
that we--that we partly manage. It's managed also by others in 
the--in the law enforcement and intelligence community. What I 
would say is I'm not familiar with that specific. If I can get 
the specifics on that, we can look at that specific case, but 
there is a process for if you think that you have been--been 
inaccurately placed on a list, there's a redress process. And 
it's a pretty fast redress process, as I understand it, 
although it's a process that you have to go through.
    Mr. Grothman. Long time for this guy, but I'll----
    Mr. Neffenger. Yeah. But I'd be--I'd certainly take it for 
action if you've got the details for me.
    Mr. Grothman. Okay. Thanks much.
    Mr. Mica. I thank the gentleman.
    Mrs. Maloney.
    Mrs. Maloney. I thank the gentleman for calling this 
hearing.
    TSA relies on many different pieces of equipment to carry 
out its screening tasks. For example, it uses Advanced Imaging 
Technology machines, walk-through metal detectors, explosive 
trace detection machines, bottled liquid scanners, and x-ray 
machines, among other pieces of equipment.
    In May of this year, the IG's office issued a report that 
concluded TSA is not properly managing the maintenance of its 
airport screening equipment, and one of the IG's key findings 
was that TSA relies on self-reported data provided by the 
maintenance contractors, and does not validate the data to 
confirm that required preventive maintenance actions have been 
taken. TSA also does not validate the corrective maintenance 
data reported by its contractors.
    So my question is to Inspector General Roth. If TSA has not 
been validating the data reported by its contractors, can it be 
sure that all required maintenance has been performed, and that 
its machines are operating correctly?
    Mr. Roth. No, they can't. And you accurately summarized 
what those reports are. It's the functional equivalent of 
giving your car to the mechanic, but not checking to see 
whether or not they've changed the spark plugs.
    Mrs. Maloney. Yeah. Well, that's important.
    And, IG Roth, do any of the contractors responsible for the 
maintenance of TSA equipment have sole source contracts? Is it 
competitively bid, or is it a sole source contract?
    Mr. Roth. My understanding is it's competitively bid, but I 
think I'd need to get back to you to give you a full and 
accurate answer.
    Mrs. Maloney. Could you get back to me and the chairman, 
would you, please----
    Mr. Roth. Absolutely.
    Mrs. Maloney. --and the ranking member?
    IG Roth, have any contractors ever been penalized for 
failing to perform any type of maintenance tasks?
    Mr. Roth. I'm not aware of any, but, again, let me take 
that back and be sure of the answer.
    Mrs. Maloney. And what recommendations did your office make 
to TSA to improve maintenance of its equipment, and what is the 
status of these recommendations?
    Mr. Roth. We did make a number of recommendations with 
regard to the process that TSA uses to verify this maintenance. 
That is still in process. We typically allow them some time to 
be able to institute those changes, but, again, I will get back 
to you with the specifics on that.
    Mrs. Maloney. And I'd like to ask Administrator Neffenger: 
Are you confident that TSA now has the systems in place to hold 
its contractors accountable for providing proper maintenance of 
its equipment? And are you confident TSA's equipment is being 
maintained and repaired properly?
    Mr. Neffenger. Thanks for that question. Let me first say 
that I concur completely with the Inspector General's findings, 
and I did find that we had--not that the maintenance wasn't 
being done, but we had no way to verify that it was, in fact, 
appropriate and done, so we put the processes in place to do 
so. We have to--we now have to measure whether those processes 
are adequate to do that, but I'm confident that--that certainly 
I get it, and that the person I have is tasked as responsible 
for ensuring that it happens, understands the importance of 
having an auditable follow-up trail for everything that's done 
to ensure that this equipment is maintained to its standards.
    Mrs. Maloney. Well, I just must underscore, which I know 
you feel, the responsibility that you have to the American 
people. We know that there are many who want to harm our 
citizens, and that they try to do it for some reason through 
the airplanes, and they are continuing to break our system. 
Because I check with the airlines in my area, and they have 
incidents where they're trying to break through. So having the 
oversight and the audit and making sure that this is happening 
is critically important.
    And I look forward to you getting back to the committee, 
Inspector General Roth, on the answers that you needed to 
review more for us. I think they're important questions, and I 
look forward to seeing what your response is.
    Again, I thank you for your public service. Thank you for 
being here today. And I thank the chairman for calling the 
hearing on a very important safety issue.
    I yield back.
    Mr. Mica. I thank the gentlelady. And I'll finish with a 
round of summary questions here.
    First of all, Mr. Administrator, in previous response to 
me, we discussed who poses a risk, and it's less than 1 percent 
of the travelers that are examined of the 660 million. Is that 
still your position?
    Mr. Neffenger. I couldn't put an exact number on it, but I 
would agree with you that----
    Mr. Mica. The vast majority.
    Mr. Neffenger. --the vast majority of travelers are----
    Mr. Mica. You're probably dealing with 20- to 50,000 people 
on some sort of a watchlist or no-fly list that we're looking 
to not board who may pose a risk, but we're spending about 95 
percent of our resources, again, on folks who pose no risk.
    You talked about where you're going, and I saw some of your 
report and I was pleased to see that you're looking to the 
future. Here's my boarding pass. I've been to Europe. Last year 
I was there twice, once in Italy and once in Germany. There was 
no TSA-type screener at the entry point. I have pictures of it. 
I'd be glad to show you. You go up and you put your boarding 
pass on, and the stile lets you through. If it doesn't let you 
through, there is a person who would subject you to additional 
screening. That's almost commonplace now in Europe in the 
domestic arena. Maybe you saw that when you----
    Mr. Neffenger. I did, yes. Yes, sir.
    Mr. Mica. Yeah. We have people going through this. Some of 
the dumbest things I've ever seen--where's your cell phone? Let 
me borrow your cell phone a second. You go up and put your cell 
phone down and they let you through, but then you've got 
another TSA--if you don't have it on your electronic device, 
then you have someone who takes time and they go through and 
circle each thing. I mean, it--there's just--just things like 
that, and where we are not.
    Can you name any countries, other than Bulgaria, Romania, 
or Poland, sort of in the more sophisticated countries, that 
have all Federal screening?
    Mr. Neffenger. I'll get back to you. I know----
    Mr. Mica. There are none.
    Mr. Neffenger. --most of the----
    Mr. Mica. There are none.
    Mr. Neffenger. --European countries do private screening.
    Mr. Mica. Israel. Yeah, but it's under Federal supervision.
    Mr. Neffenger. Right.
    Mr. Mica. I have never said do away with TSA. I have said 
change your role, change the resources to connecting the dots, 
to security. That's what's going to get us. And every time 
we've been successful in stopping someone, it's connecting the 
dots. But, again, we are--you said it may be 5 years before we 
could get to this. This should be tomorrow.
    Mr. Neffenger. Well, actually, I think we'll get to that 
much faster.
    Mr. Mica. Yeah. And we should be embedding the information 
here. I saw that in German--in Nuremberg demonstrated in 2003, 
completely operational. It will stop people, they won't be able 
to board. The systems exist. We just keep falling further 
behind, adding more people.
    Now you're saying you're training them, you're sending them 
back to basics to a law enforcement training program?
    Mr. Neffenger. No. It's at the Federal Law Enforcement 
Training Center. It's not a law enforcement training program. 
It's usual----
    Mr. Mica. Well, I have to make it clear. And some of my 
colleagues don't even know that TSA screeners are not sworn 
personnel, right?
    Mr. Neffenger. That's correct. This is not----
    Mr. Mica. Okay. They are not sworn personnel.
    Mr. Neffenger. That's right.
    Mr. Mica. They are screeners.
    Mr. Neffenger. That's correct.
    Mr. Mica. And, again, you have this huge bureaucracy trying 
to recruit. And maybe you've gotten better, you know, I--this 
goes, we're hiring them off of pizza box ads, and above 
discount gas pump advertisements for screeners, that hopefully 
has stopped. But you can recruit all you want, you can train 
all you want. You have actually trained more people than you 
employ, and--at this time. You know that? You've actually 
trained more people. They're gone. Your turnover has been--some 
places it's horrendous, other place--and granted, some markets 
are very difficult, but--okay.
    So we've got equipment, and this is about equipment. I've 
heard--and the AIT failures to maintain, to operate, to train 
people for it, Advanced Imaging Technology. The deployment is a 
disaster. How many machines do we have? 700 and what?
    Mr. Neffenger. About 750 machines currently.
    Mr. Mica. 750 machines. They're at how many airports?
    Mr. Neffenger. They're at----
    Mr. Mica. 160 is the answer. How many airports do you have? 
Say over 400----
    Mr. Neffenger. About 400 over--about 450.
    Mr. Mica. So about 300, 290 airports that don't even have 
an AIT machine. I'm Mr. Dumb Terrorist. Okay? Where am I going 
to go under the system? AIT is the best equipment we have, but 
it can be thwarted. I know it can be thwarted. I'll get it in 
the airport, but it's the best device we have available. You've 
made some refinements to it, but personnel are human beings, 
they're going to fail. I will bet the staff a dollar--okay, 
Mike, I'm going to bet you a dollar, they'll be back here, 
we'll do it next September, we will do the same hearing, we'll 
have covert testing. Maybe you'll improve slightly, but it will 
still be a disaster. It's been a disaster in every classified 
hearing I've sat in, the failure rate. If it was publicly 
known, people would scream for some change.
    So, again, I want to get you out of the personnel business, 
which is that huge--again, they're not law enforcement, but 
screening team. Again, you need to be in intelligence and 
connecting the dots and security, setting the protocols, the 
standards, seeing who is not performing, getting rid of them if 
it's a private firm that's operating.
    Okay. So here's our AIT's, we have 450 airports, we're at 
160 locations. Then you go to the locations when they put them 
out. It was mind boggling. And how are you going to change 
that? It costs hundreds of thousands of dollars for the 
equipment, then it costs the airports and you a fortune to put 
them in place.
    You go to some concourses, and they've got two or three of 
them in one concourse. It was never intended for that. It's 
intended to be a secondary screening device. And then in other 
concourses, even at National you go to, one of our airports in 
some of the concourses have none. So you have started--I mean, 
God bless you, you're trying to change a mess, but even the 
deployment of that important machine has been a disaster.
    When we spoke, I asked you about reducing some of the 
overhead. You've got thousands of people in overhead, 46,000 
screeners. It was up to 15,000, we found either within the 46 
over here in Washington. One time there were 4,000 making 
$103,000, on average, just within 20 miles of where we're 
sitting. And some of those may be important responsibilities, 
but, again, paring that down.
    We have the public-private screening partnership, and I'm a 
firm believer in that. They probably--well, I know they perform 
a little bit better than you, because I've had that tested. And 
they came back and told me, you know what the response was when 
there was a fair, open testing? They said that private 
screening performed--under Federal supervision, private 
screening under Federal supervision performed statistically 
significantly better.
    Now, I don't care how polite your agents are. It's nice to 
have them polite, you've impressed some of the members. What I 
care is if they are able to deter a terrorist from getting 
through. And they are not law enforcement personnel, they are 
screening personnel. You've got your whole billions of dollars, 
billions of dollars focused on people who don't pose a risk. So 
we need to get away from that model.
    A Member of Congress, Mr. Walberg, who testified, he's got 
an ID card. Sometimes they don't even recognize a Federal ID 
and ask you for a driver's license. But I've had hearings here 
on driver's license and ID's, TWIC cards and others that can 
and have been duplicated. That's one of the easiest things you 
can do. And I can take and make you the fanciest boarding pass, 
I'll challenge you, be glad to go out and take one, and I can 
get through any of your gates at National, or anyplace else, 
with just a little bit of work on a computer.
    So, again, we've set up a system that is destined to fail. 
You'll be back here, maybe slight improvement, training some 
more folks, maybe a little bit better retention.
    Back to the partnerships. In Rochester, one of several 
dozen public-private partnerships, I told you they had, at one 
time, 15 to 18 people, most of them making between 60 and 100-
and-some thousand dollars. They have 1.1 million passengers. I 
went to Canada and looked at similar operations. They have one 
Federal person. And I think you need a Federal person, someone 
who's charged with the intelligence, someone who's charged with 
conducting the oversight audit on a daily basis and making 
certain it works.
    Is there any hope of getting a reduction of some of the 
people we don't need at these programs where we have the 
public-private partnership?
    Mr. Neffenger. As you know, we actually have reduced the 
number of oversight directly for the partnership, but there's 
a--the additional responsibility of TSA has members, there's a 
surface inspection in transportation, so a number of those 
people are involved in compliance examinations and the surface 
examinations.
    Mr. Mica. And there's anything that can't be done through a 
contract----
    Mr. Neffenger. Well----
    Mr. Mica. --written in a contract? But okay. Two, three, 
four people at an airport like Rochester, not 15 or 16. Again--
and I know the game. You pack it so it makes it look like it 
costs more or as much for private screening under Federal 
supervision. We're going to have a report that will be released 
soon and show some of the costs. At least it costs less under 
that. Not that I'm trying to do it on the cheap. They're just 
more efficient. I support Federal wages, no change in that. I 
support union membership. I put that in the bill in the 
beginning bill. In fact, in the private screening in San 
Francisco, they had folks belonging to unions long before the 
most recent signup of folks across the area.
    I have another question the chairman wants me to get in. 
Will you let the committee know today, or within the period we 
keep the record open, we want a complete response on when you 
will--will you--you will finish and address all of the 
recommendations that the IG and GAO have put forward. Could 
you--could you give us that today, do you think? Or do you want 
to give it to us for the record?
    Mr. Neffenger. I'll give you a schedule for the record. 
What I will tell you is what I told both the Inspector General 
and Director Grover, and that is, that I'm committed to 
addressing all the remaining open recommendations as well as 
any that remain that are nonconcurrers and getting those 
closed.
    Mr. Mica. And if you can get the committee in the next--
what are you going to leave this open, 10 days, Mr.----
    Mr. Cummings. Yes, 10 days.
    Mr. Mica. 10 days. Without objection, so ordered. We'll 
leave it open for 10 days.
    Mr. Cummings. No. I have----
    Mr. Mica. No, I'm not finished. I was just leaving it open 
and I'm making certain they comply with your wishes, too.
    Mr. Cummings. Okay. That's fine.
    Mr. Mica. Okay. But in any event, 10 days, and we would 
like that made part of the official record, and as exact a 
date, because, again, I'm going to--I'm going to hold a 
subcommittee hearing if we don't hold a full one within a year, 
give you a chance. You're here, and I love your attitude, I 
love your willingness to be open with the committee. You've 
inherited one of the most difficult tasks.
    You're the, what, sixth Administrator? I've dealt with them 
all, and I think you're one of the most capable that we've--
we've been fortunate to have, but we need to look at rewriting 
the ship on this whole security thing, get you out of the 
business that gives you the headaches.
    And I know you'll go back and people will say, oh, Mica's 
full of it and don't listen to him, but as long as you keep 
trying to manage a $46,000 HR department, you are going to have 
problems with recruiting, with training, with retaining, with 
managing. You will never get it right, I can assure you. Not 
that it's your fault. You're dealing with human beings. And 
then using all of that resource to go after 99 percent of the 
people who don't pose a risk, not expediting their passage, and 
not redirecting those resources towards the bad guys, 
connecting the dots, security, making certain that you set the 
standards.
    And then as the Inspector General and Director Grover have 
said, that you--you bear down on those that are not meeting the 
standards that you have, you kick their butts out, you fire 
them, you--and terminate their contract. That's your--I 
believe, your role.
    So, again, welcome. Isn't this great? You want to 
reconsider? No. He's--no. You're--but you are a true hero to 
come forward. I have the greatest respect for you and what 
you're going to try to do. I'm trying to get you to see a year 
from now what you're going to face when you--when you come back 
here and where we'll be.
    With that, thank you. And I want to yield to the ranking 
member, Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman. I want to 
thank all of you for your patience. I know it has already been 
a long morning, and I only have a few questions.
    As all of you know, our Nation has one standard credential 
for merchant mariners and employees who need access to secure 
areas of ports, it is called the Transportation Worker 
Identification Card, or TWIC card. You said the TWIC was 
required by the Maritime Transportation Security Act, and each 
TWIC is issued by the TSA.
    Administrator Neffenger, I'm curious, given your background 
with the Coast Guard, which model do you think is better? 
Should credentials for access to facilities, secure areas be 
issued by each individual facility, or should they be issued by 
a national entity like TSA?
    Mr. Neffenger. I don't know if I have a good direct answer 
to that. And by that, I mean this: When you have a nationally 
issued ID card, that creates a lot of challenge in managing it 
and issuing it, and introduces some concerns with respect to 
its--its viability across a large organization.
    That said, I think that both systems can work effectively 
if they're--if they're--if the oversight is what it should be. 
I think as I look at the badging environment in the airports, 
airports would argue that they like the fact that the badges 
are different, because it means you can't move from one airport 
to another and show up and get access. You have--you have to 
have something that says your airport on it.
    I think that we can do a lot more to ensure the security of 
those--of those badges, and to ensure the accountability of 
those badges as we move forward. There was an awful lot of 
information that came out of what the Aviation Security 
Advisory Committee study told us about the--the way to manage 
and to ensure the integrity of those badges going forward, as 
well as to look at the oversight of those. I think the 
Inspector General has pointed out some important areas for us 
to consider.
    So I don't--I don't really know which--which approach is 
better. I think both approaches can work very effectively, but 
they need a lot of oversight no matter which way you take it. 
As you know, there have been some challenges in the TWIC 
program as well.
    Mr. Cummings. Yeah. Yeah. The--are you confident that full 
implementation of your plans will ensure that TSA's screening 
systems will pass future covert tests by the Inspector General 
and TSA's own covert testing teams?
    Mr. Neffenger. Well, testing will tell, but I--I'm 
confident that we're on the right track. I hope it means that 
we will--we will see dramatic improvement in the future. I 
believe it will, but I don't believe that we can just declare 
it done and move forward. I think that this is a continuous 
process, and it's a continuous attention. This is one of these 
things that, as I said before, you can't just fix this and 
assume you've got it right. This is--what it's allowed us to do 
is see that this is a--this is an ongoing attention that needs 
throughout the entire life of the organization. There is no 
fixing it. There is addressing the challenges, learning from 
what you've addressed, testing yourself, learning from those 
testing and that continuous improvement as we go forward.
    So what I will tell you is that, certainly for the duration 
of my tenure, that I don't ever take my focus on continuing to 
test this system, evaluating the processes and training that we 
put in place, the procedures, continuing to adjust them as we 
discover whether they work or don't work, and then looking for 
how to distribute those--the best practices that we find across 
the whole system, and that includes looking to our 
international partners for anything that they might be doing 
that can inform the way we do business, because this global 
system relies on global standards and global consistency.
    Mr. Cummings. Now, as you've heard GAO state today, TSA has 
not always established performance--performance measures that 
clearly align with its goals. How will you know if you have 
altered the pervasive cultural problems in TSA and what 
performance metrics will confirm it?
    Mr. Neffenger. Well, we took a look at the--I took a look 
at the entire measurement system, and essentially said, look, 
the current--the current way we're measuring isn't leading us 
to improving the system. So I think there's a readiness 
component. I want to know if the workforce is ready, meaning 
are they trained, do they know what the mission is, do they 
have the support of the leadership, and is there ongoing 
attention to that, and then I want to look at their 
performance. Then I have to test them. Did all that stuff work? 
Did what I think about their readiness actually show itself in 
their performance?
    The system has to have the same sort of measures. You need 
to know is the system ready, meaning, have we maintained it 
appropriately? Can we verify that we've maintained it 
appropriately? Is it meeting the standards before we deploy it 
that we expect it to meet? And all those other things that go 
into does it work? And then the second piece is how well does 
it perform when you plug it into the system? And so then you 
have to go back and you test that as well.
    So you're testing the people, the processes, and the 
technology, both its readiness to do its mission as well as the 
actual production of that mission, and it's a continuous 
process. I will tell you that right now I get a report on a 
weekly basis directly to me on those measures. We have a ways 
to go yet. We're putting--we're getting the organization used 
to a new way of thinking, it's measuring effectiveness, it's 
focusing on the security component and the effectiveness of 
that; it's defining that mission in a very clear way, and then 
looking to see what we're learning as we're--as we're studying 
it.
    So we've actually learned quite a bit already about--about 
system readiness, both in the workforce as well as in the--in 
the technology, and it's leading to some things that we have to 
do to improve that on both scores, and it's also beginning to 
point the way towards how we're going to effectively measure 
performance, and that will include working with the Inspector 
General and the GAO as we go forward.
    I see this as a very valuable partnership, even--even 
recognizing that they have to be independent and they're 
skeptical, and I want them to stay that way, but they give me 
valuable information about how my system's working.
    Mr. Cummings. Well, let me say this, that the--one of the 
things that I have pushed with the Coast Guard, with the Secret 
Service and the Baltimore city police, is I've said that I want 
them to create an organization which is the elite of the elite. 
In other words, a feeling that we are the best and that our 
standards are high. And I believe that when you have--when you 
get there, the people who are caught up in a culture of 
mediocrity will fall off, because they won't feel that they 
belong, period. You won't have to fire them; they'll leave. 
Some of them you may have to fire, but most of them will just 
back off.
    So, you know, as I've heard the testimony today, one of the 
things that just gnaws at me is the idea that we have now an 
agency that's willing to accept the recommendations. And, 
Director Grover, I keep going back to some of the things you 
said about accepting these recommendations and then trying to 
do them. But we're still having those gaps. And, you know, as I 
was sitting here and I was listening to all of this, I was 
saying to myself, well, maybe it's not just all the things that 
you've just said, but you have to add something else to it. 
See, I think that when you--when we have recommendations, and 
then your agency looks at them and says, Oh, yeah, we got to do 
this, yeah, we missed that, we got to do that, it may go back 
to that whole idea of trying to impress or get it done, but not 
concentrating on why they're doing it, you know, why that's 
important. And some kind of way I think to get to the elite of 
the elite, I think people have to have a full understanding of 
why it is and the fact that bad things can happen, and perhaps, 
if you're not on guard, they will.
    And I keep--for some reason, I keep going back to Katrina. 
I'm telling you, I think about Katrina almost every day, 
because it's one of those situations, Director Grover, where we 
claimed that we were ready. We couldn't even communicate across 
town. And like I said, when they said the rubber meets the 
road, we didn't have a road. And our country is so much better 
than that.
    And so I think one thing is leadership, I think another is 
metrics, and I'm hoping that--I will talk to Chairman Chaffetz, 
and we--he has been very open to accepting the model that we 
used in the Coast Guard Subcommittee where we constantly 
brought folks back so that we could actually, you know, see 
where we were going, because one of the things that you heard 
me say many times, a lot of times agencies, and I'm not 
bringing--I'm not saying you did this, but agencies will wait 
out a Congress and then, you know, and so there's no real 
accountability, going back to what you said, Ms. Grover, 
Director Grover, you've got to have accountability. One of the 
best ways to have accountability is set deadlines, and then can 
come back and report. And it may be that you don't achieve 
every single thing you want to achieve, but hopefully, we can 
get in--you know, see our progress. And by the way, I think 
when the agency sees its progress, that, again, helps them feel 
like the elite among the elite.
    And finally, you know, I just--I thank all of you for 
working together, and I thank you for having the attitude that 
you have. I think one of the biggest mistakes that we make is 
sometimes we act like, you know, the Inspector General and 
Director Grover, that we're all on different teams. But what 
you're saying is that we're all on the same team trying to lift 
up the American people and keep them safe. That's the team that 
we're on. That's our team.
    And so if I've got a member of the team that can see things 
that I can't see, and can bring them to my attention and help 
me become better, and, again, become the elite of the elite, I 
think that's what we ought to be about. And I thank you for 
having that kind of attitude, because that's what--that's 
what's going to get us where we've got to go. And I think 
we're--and I go back to what Mr. Gowdy said a little bit 
earlier. I'm going to tell you, I have had nothing but good 
experiences with TSA, I mean, everywhere I go. And I know that 
we've got some great men and women working for that 
organization, and--but at the same time, I know they're also 
very--they're human.
    And so I think we have to constantly find those ways to 
keep the work exciting to keep it--you know, refreshing their 
skills and reminding them of how important their job is and how 
we appreciate them, because I can tell you, when you've got 
somebody--you've got hundreds of people every day trying to 
rush to get to a flight, that some of them are very upset, 
they've got the kids, they got the stroller and all this, and 
then they've got to be checked, I'm sure that's just an 
opportunity for people's frustrations to get out of hand, but, 
yet, it's still--I've seen over and over again where TSA 
officers have just been very patient, understanding, and tried 
to do the right thing at all times and, at the same time, 
protect us.
    And so again, I thank you all. We look forward to seeing 
you again. Your testimony has been extremely meaningful, and I 
think it can lead us into effectiveness and efficiency. I've 
often said that there's nothing like having motion, commotion, 
and emotion and no results. We have to have results, and I 
think we can get there and I think you all are--have given us a 
roadmap to get there. Thank you.
    Mr. Mica. I thank the gentleman. I thank the members for 
participating today. We've--we've gone through all the 
membership, and you all have been most accommodating. I realize 
the task that you have, Administrator, but I particularly want 
to thank the Inspector General and also the Director. You have 
an important role with your oversight. The committee conducts 
some oversight, we rely on you and your independence in going 
forward. And the goal here is to keep the American public safe, 
to make certain that we don't have another 9/11, and that we do 
the best that we can with the resources given to us by the 
taxpayers.
    So with that being said, there being no further business 
before the committee--I will mention, too, the staff has said 
that we will be submitting to you, all as witnesses, additional 
questions in this interim time for response, so we want you to 
know those responses will also be made part of the record.
    There being no further business, this hearing of the 
Government Reform and Oversight Committee is adjourned. Thank 
you.
    [Whereupon, at 12:51 p.m., the committee was adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record
               
               
               
               
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
           
               
          

                                 [all]
</pre></body></html>
